<html>
<title> - COMBATING METHAMPHETAMINE PROLIFERATION IN AMERICA</title>
<body><pre>[Senate Hearing 106-715]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-715
 
           COMBATING METHAMPHETAMINE PROLIFERATION IN AMERICA

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                                S. 1428

   A BILL TO AMEND THE CONTROLLED SUBSTANCES ACT AND THE CONTROLLED 
SUBSTANCES IMPORT AND EXPORT ACT RELATING TO THE MANUFACTURE, TRAFFICK, 
 IMPORT, AND EXPORT OF AMPHETAMINE AND METHAMPHETAMINE, AND FOR OTHER 
                                PURPOSES

                               __________

                             JULY 28, 1999

                               __________

                          Serial No. J-106-41

                               __________

         Printed for the use of the Committee on the Judiciary

                    U.S. GOVERNMENT PRINTING OFFICE
67-479 CC                   WASHINGTON : 2000



                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                  (ii)




                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     1
Feinstein, Hon. Dianne, U.S. Senator from the State of California     3
Grassley, Hon. Charles E., U.S. Senator from the State of Iowa...     6
Kyl, Hon. Jon, U.S. Senator from the State of Arizona............     9
Feingold, Hon. Russell D., U.S. Senator from the State of 
  Wisconsin......................................................    10
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    12
Kohl, Hon. Herbert, U.S. Senator from the State of Wisconsin.....    12
Ashcroft, Hon. John, U.S. Senator from the State of Missouri.....    13
Biden, Hon. Joseph R., Jr., U.S. Senator from the State of 
  Delaware.......................................................    15
DeWine, Hon. Mike, U.S. Senator from the State of Ohio...........    16

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Hon. Tom Harkin, U.S. Senator from the State of Iowa     8
Panel consisting of Donnie R. Marshall, Acting Administrator, 
  Drug Enforcement Administration, U.S. Department of Justice, 
  Washington, DC; Paul M. Warner, U.S. attorney for the District 
  of Utah, Salt Lake City, UT; Katina Kypridakes, manager, 
  Precursor Compliance Program, California Bureau of Narcotic 
  Enforcement, Sacramento, CA; Ron Doerge, sheriff, Newton 
  County, MO, Neosho, MO; and John Vasica, Sandy, UT.............    17

               ALPHABETICAL LIST AND MATERIALS SUBMITTED

Doerge, Ron:
    Testimony....................................................    43
    Letter to Senator Hatch dated July 26, 1999..................    45
Grassley, Hon. Charles E.: Prepared statement of the Agricultural 
  Retailers Association..........................................    32
Harkin, Hon. Tom: Testimony......................................     8
Kypridakes. Katina:
    Testimony....................................................    34
    Prepared statement...........................................    39
Marshall, Donnie R.:
    Testimony....................................................    17
    Prepared statement...........................................    22
Vasica, John: Testimony..........................................    46
Warner, Paul M.:
    Testimony....................................................    28
    Prepared statment............................................    30


           COMBATING METHAMPHETAMINE PROLIFERATION IN AMERICA

                              ----------                              


                        WEDNESDAY, JULY 28, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Grassley, Kyl, DeWine, Ashcroft, 
Sessions, Biden, Kohl, Feinstein, and Feingold.

OPENING STATEMENT OF HON. ORRIN G. HATCH, A. U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. We are happy to have you all here today. 
Today, the Judiciary Committee will hear testimony concerning 
the growing problem of methamphetamine manufacturing and 
trafficking.
    Last week I, along with Senators DeWine, Feinstein, 
Thurmond, Biden, and others, introduced the Methamphetamine 
Anti-Proliferation Act of 1999. That is a bill designed to 
address the serious problem of methamphetamine manufacturing in 
this country. Methamphetamine is known on the streets as 
``meth,'' ``speed,'' ``crank,'' ``ice,'' and ``crystal meth.'' 
It is a highly toxic and addictive stimulant that affects the 
central nervous system.
    Methamphetamine, first popularized by outlaw biker gangs in 
the late 1970's, is now being manufactured in makeshift 
laboratories across the country by criminals who are determined 
to undermine our drug laws and profit from the addiction of 
others. I hope that with some of the testimony we will hear 
today, we can learn how to better combat methamphetamine.
    One problem we face is that it doesn't take a lot of 
ingenuity or resources to manufacture methamphetamine. This 
drug is manufactured from readily available and legal chemicals 
and substances. In addition, there are countless Internet Web 
sites devoted specifically to providing detailed instructions 
for making methamphetamine. Anyone who has access to the 
Internet has access to the recipe of this deadly drug. In fact, 
one pro-drug Internet site contains more than 70 links to sites 
that provide detailed information on how to manufacture illicit 
drugs, including methamphetamine.
    Accordingly, the methamphetamine production problem is real 
and it is immediate. The numbers are telling. According to the 
Drug Enforcement Administration, the number of labs seized has 
increased dramatically each year since 1995. Last year, 5,786 
amphetamine and methamphetamine labs were seized by the DEA and 
State and local law enforcement officials, and millions of 
dollars were spent cleaning up the pollutants and toxins left 
behind by the operators of these labs.
    In Utah alone, there were 266 lab seizures last year, a 
number which elevated Utah to the unenviable position of being 
ranked third among all States for highest per-capital lab 
seizures. I should point out, however, that seizures would not 
occur if Utah's law enforcement community wasn't doing all it 
could with the resources it has. Indeed, the high number of 
seizures by both Federal and State law enforcement officials 
not only represents the severity of the problem, but also 
serves as a testament to how Federal, State and local law 
enforcement agencies have been working together to rid our 
Nation of this problem.
    The problem wit the high number of manufacturing labs is 
compounded by the fact that the chemicals and substances 
utilized in the manufacturing process are unstable, volatile, 
and highly combustible. The smallest amounts of these chemicals 
when mixed improperly can cause explosions and fires. And, of 
course, most of those operating methamphetamine labs are not 
scientists but rather unskilled criminals who are completely 
apathetic to the destructive powers that are inherent in the 
manufacturing process.
    This fact is even more frightening when you consider that 
many of these labs are found in residences, motels, trailers, 
and vans, and many are operated in the presence of children. 
All one need do is remember the three young children who were 
burned to death when a methamphetamine lab being operated by 
their own mother in a trailer home exploded and caught fire. 
That was mentioned in a San Diego Union Tribune article 
entitled ``Meth Madness: Home Deaths Ruled Felony Murder.'' I 
honestly don't know which is worse: using methamphetamine or 
manufacturing it. Either way, methamphetamine is killing our 
kids.
    So what can we do about the problem? In 1996, Congress 
passed the Methamphetamine Control Act. This important, 
bipartisan measure targeted the diversion of the most commonly 
used precursor chemicals and mandated strict reporting 
requirements in the sales of these chemicals. These measures 
have allowed the DEA, along with the help of industry, to stop 
large quantities of precursor chemicals from being purchased in 
the United States for use in manufacturing methamphetamine. But 
as this hearing will demonstrate, more can and should be done 
to help law enforcement uncover, arrest, and hold accountable 
those who produce this drug.
    My proposal will provide, in part, necessary funding to the 
DEA to combat methamphetamine manufacturing by providing 
assistance to State and local law enforcement officials in 
small and mid-sized communities in all phases of 
methamphetamine investigations and establishing additional DEA 
offices in rural areas. It will also provide much needed 
training to State and local agencies in handling toxic waste 
created by methamphetamine labs.
    The legislation prohibits the posting of illegal drug 
recipes on the Internet when there is intent to commit a 
Federal crime, and it clarifies that Federal law prohibits the 
advertisement and sales of drug paraphernalia over the 
Internet. Importantly, it provides for stiff penalties when the 
manufacturing of an illegal drug creates a substantial risk of 
harm to human life or the environment. Finally, it makes 
restitution mandatory for costs incurred by the government for 
the cleanup of waste produced by methamphetamine labs. This 
legislation will provide law enforcement with several effective 
tools that will help us turn the tide of proliferation of 
methamphetamine manufacturing both here in America and across 
our borders.
    Now, in closing I want to thank the distinguished panel of 
witnesses for their appearance today. I would like to point out 
that among our fine witnesses are two Utahns, U.S. Attorney 
Paul Warner, and John Vasica, a father who has felt the 
heartache of methamphetamine abuse and is doing something about 
it. I look forward to their testimony and the testimony of all 
of our witnesses.
    I would also like to thank the various members of this 
committee who have worked so hard throughout their careers 
against these types of problems, and most of them are here this 
morning. Particularly, I would like to turn now to someone who 
has done an awful lot of work in this area and who deserves a 
lot of credit, Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, and 
thank you for convening the hearing. Your deep concern over the 
spread of methamphetamine through our country is greatly 
appreciated. I just want to begin by saying that this is an 
issue that worries me greatly.
    I would like to join you in welcoming our witnesses here as 
well, and I would like to extend a special welcome to Katina 
Kypridakes, from California. She is Manager of the Precursor 
Compliance Unit at California's Bureau of Narcotic Enforcement. 
Ms. Kypridakes has worked extensively with my office over the 
years in the drafting of earlier legislation to control the 
precursor chemicals that you alluded to. These precursor 
chemicals are used to cook methamphetamine. The legislation 
that you spoke about that I worked with you on was passed into 
law in 1996.
    Unfortunately, California is considered by DEA to be the 
source country for methamphetamine in the United States. Former 
DEA Administrator Tom Constantine testified earlier this year 
before Congress that super labs capable of producing hundreds 
of pounds of methamphetamine on a weekly basis have been 
established in both Mexico and California, where the 
methamphetamine is then provided to traffickers who then 
distribute it across the United States.
    I am sorry to say that in a nationwide drug enforcement 
operation known as Operation Pipeline, 92.8 percent of all of 
the methamphetamine seized throughout the country, from January 
1993 to May 1995, was identified as having California as its 
origination point. The 1990's have seen a dramatic increase in 
methamphetamine abuse. Meth-related emergency room admissions 
increased by 269 percent from 1992 to 1994. It tailed off in 
1996, and it returned to those same high levels in 1997.
    Fortunately, law enforcement has been significantly 
increasing its efforts to combat meth. Last year, over 1,000 
clandestine labs were seized and shut down in California alone, 
1,006 by the State Bureau of Narcotic Enforcement, and 164 by 
DEA. The State Bureau of Narcotic Enforcement more than doubled 
its lab seizures from just 3 years earlier in 1995, when it 
seized 465 labs.
    Still, methamphetamine remains a major and significant 
problem. California still leads the way. The National Institute 
of Justice just released its annual report on meth use among 
arrestees. San Diego, CA, close to Mexico, has the highest 
number of meth arrestees in the country, 33 percent testing 
positive for meth. Sacramento and San Jose were also among the 
most hard-hit jurisdictions.
    As a Missouri newspaper which was circulated to all of us 
by one of our colleagues in the House last year put it, 
``California wishes it had Missouri's methamphetamine problem. 
That would be an improvement in a State where the production of 
meth has become a major industry.'' And that is the truth.
    Now, what makes this explosive growth of such significant 
concern to all of us is the effect that this particular drug 
has on human beings. Addicts become desensitized to meth's 
effect, so that they have to use more and more to maintain 
their high. Prolonged periods of abuse leads to a type of 
psychotic state, including paranoid and violent behavior.
    I will never forget the report of a New Mexico man high on 
meth and alcohol who had a disagreement with his son in the 
car. The son was 14 years old. The father chopped off his head 
and threw the head out of the window of his van on a crowded 
highway. That is the kind of behavior. I have seen meth 
cropping up in rape victims who have been murdered, their 
attacker on methamphetamine as well.
    The other factor which makes meth especially dangerous is 
that it is cooked--that means made up--in this country in very 
dangerous and very clandestine labs. They use highly flammable 
chemicals, they blow up in explosions, and they leave toxic 
hazardous waste sites which require substantial environmental 
cleanup. Authorities estimate that for every pound of meth made 
in one of these labs, 5 pounds of toxic waste is produced.
    To address this growing scourge, I would like to work 
closely with you, Mr. Chairman. Senator Grassley has been very 
involved; we have worked together in the past. In the 104th 
Congress, all of us, including Senator Biden as well, 
participated in that comprehensive Methamphetamine Control Act.
    Now, in that Act we tried to get at the precursor 
chemicals--iodine, hydrochloric gas--and we added them to the 
Chemical Diversion and Trafficking Act, requiring purchasers to 
provide their name, address and other information at the time 
of sale. We substantially increased fines for companies selling 
those chemicals to make methamphetamine, and we eliminated 
over-the-counter exemptions for pseudoephedrine. That is used 
in common cold remedies. We required the reporting of retail 
sales of more than 24 grams.
    We found that what was happening is that some of these 
people who made methamphetamine would go into like Long's 
drugstore and just sweep the shelves and take these cold 
remedies for the pseudoephedrine and go out and use them in the 
cooking of meth.
    We also increased the maximum penalty from 10 to 20 years 
for possession of chemicals or equipment used to make meth. 
Senator Ashcroft introduced the Methamphetamine Trafficking 
Penalty Enhancement Act of 1998 which equalized penalties for 
meth with those for crack cocaine, and many of us worked with 
him on that bill as well.
    However, I think the point of this hearing--and I am 
delighted that Senator Harkin is here because both he and 
Senator Grassley share the concern for the spread to the State 
of Iowa which has become pronounced. We need to do more, and it 
is difficult to really know what to do more.
    The bill that you have introduced, Mr. Chairman, and that I 
am proud to also cosponsor along with others of my colleagues 
here, increases the penalties for dealing in amphetamines, 
equalizing the amphetamines with methamphetamine. It increases 
the sentences for endangering the safety of a minor in meth 
manufacturing or trafficking.
    We have had these labs blow up when actually minor 
children, 3, 4, 5 years old, are on the premises. And we have 
seen the parents go off, run, and leave their children in the 
meth labs. So what we would do here is increase the sentences 
for endangering the safety of a minor generally in the 
production or cooking of meth.
    We would prohibit advertisement for drug paraphernalia 
which you see here, and we would make it easier for prosecutors 
to prove a continuing criminal enterprise charge by clarifying 
that the jury simply has to find that the defendant committed 
any three drug felonies, and not necessarily the same three 
drug felonies.
    We would require the criminals to pay the lab cleanup 
costs. We would make it a crime to endanger the environment in 
illegally manufacturing a controlled substance. We would 
prohibit the distribution of drug-making information, make so-
called sneak-and-peek warrants effective, authorize funding for 
DEA clandestine laboratory training for both State and local 
law enforcement, and increase the emphasis of methamphetamine 
in high-intensity drug trafficking areas, which incidentally 
are working very well. We also authorize funding for 50 new DEA 
positions, including 31 special agents to focus on meth, and we 
would require antidrug messages on all Federal Government Web 
sites. These are very definitive and very positive steps which 
we hope will help law enforcement in its fight against 
methamphetamine.
    So I very much look forward to hearing our witnesses today 
as to what they think the progress in the methamphetamine fight 
has been, how successful our efforts to control the precursor 
chemicals have been, and whether this bill, with its more 
stringent penalties and other aspects, can be of help in the 
fight against methamphetamine.
    I thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Feinstein.
    Because everybody on the dais has had a great deal to do 
with this, in order of appearance we will next call on Senator 
DeWine and then we will go to Senator Feingold and back to 
Senator Grassley.
    Senator Grassley. Well, DeWine is not here.
    The Chairman. Oh, he is not here. Well, then, we will go to 
Senator Grassley.
    Senator Grassley. He may come back.
    The Chairman. Let me introduce Senator Grassley. I am 
sorry. I thought Senator DeWine was here.
    Senator Grassley. That is OK.
    The Chairman. Let me introduce Senator Grassley, who is the 
chairman of the Senate Caucus on International Narcotics 
Control. We are very pleased that you are on this committee and 
that you have done so many things in this area. So we will turn 
to you first for a short statement, if we can.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. I think, first of all, I thank Senator 
Feinstein for going over our previous work together in this 
area. Senator Hatch has done a very good job of pointing out 
the situation in his State. I think Senator Harkin's presence 
here and my being a member of this committee and speaking about 
this emphasizes the importance of this problem to my State of 
Iowa, both from a meth production standpoint and destroying 
lives and also from the harming of the environment, and also I 
think because meth is probably a problem that 
disproportionately affects rural America, and that doesn't 
denigrate anything that Senator Feinstein said about 
California.
    While most of the drug is produced in Mexico by criminal 
gangs, there has obviously been demonstrated here a growing 
domestic production, and again primarily in rural areas. Along 
with you, Mr. Chairman, there are a number of Senators on this 
committee from rural areas in the West and Midwest who I am 
sure back up this point.
    There is a story in a recent issue of the Des Moines 
Register that Senator Harkin and I are very much acquainted 
with about this young girl in Burlington, IA, Jessica Smith, 
who died, and probably the youngest person in my State to die 
from meth use. Sadly, she had used it 15 times before, and on 
each occasion it was given by the mother. And in this 
particular case, she died of a soft drink being laced with 
meth, and the parent and one other adult have pleaded guilty to 
that. But I think it brings very much home the problem that we 
have and is a real face for those of us in Iowa on the problem 
that it is.
    Jessica Smith is a real person that has been hurt by it, a 
young person, a person who had their full life ahead of them, 
and probably would be able to contribute unique talents to 
society but is not alive today to do it. But we are here today 
to make sure that other Jessica Smiths don't happen in my 
State.
    For my part, I am pleased that the Commerce, State and 
Justice appropriations bill which the Senate just passed last 
week contains money that I requested for law enforcement in 
Iowa. The Iowa Methamphetamine Initiative will fund a Meth Ed 
Learning Center that will teach middle school students about 
the dangers of meth and help the State pay overtime for Iowa 
law enforcement agencies involved with cleaning up meth labs. I 
am hopeful that these new resources will provide vital 
assistance to the Iowa law enforcement community which is doing 
a wonderful job in the face of this drug explosion.
    In 1998, Mr. Chairman, as you gave figures for your State, 
we had 321 methamphetamine labs found in Iowa and so-called 
busted, and that was more than double the year before. And as 
of the first quarter of this year, over 170 labs have been 
found in Iowa. At this rate, my State will almost double again 
local production of meth and the busting of labs. And that, of 
course, is just what we know about. Those statistics don't even 
account for the flow of meth from out of State, and we have 
heard from law enforcement people that maybe only 10 percent is 
manufactured within our State.
    Another unique aspect of the meth problem is that you can 
get the formula for producing it off the Internet, and many of 
the chemicals that you need to produce it are sold at the local 
hardware stores and pharmacies. And as a farmer from my State, 
I am concerned and, of course, dismayed learning recently, as 
Senator Harkin has, about common chemicals used on the farm 
being stolen from the farm to produce it. One of those is 
anhydrous ammonia, which many of you know is a soil nitrogen 
enhancer commonly used by farmers that raise corn, having been 
stolen for this reason of production of methamphetamine.
    I have also introduced legislation called the Rural 
Methamphetamine Use Response Act of 1999 which will provide 
assistance for researchers at our State university looking for 
chemical treatments that will make anhydrous ammonia useless in 
meth production and increase penalties for transporting 
anhydrous ammonia across State lines for use in meth-making.
    I am pleased that we have had Senators Kyl, DeWine, Hagel 
and Kohl join in the cosponsorship of this. And I know, Mr. 
Chairman, that you have recently introduced a meth bill that 
you have just described which I am studying at this time and I 
hope to be able to support as well. I am particularly 
interested in getting some tough new mandatory minimums for 
meth production and trafficking so that the public will know 
that meth dealers who get caught will be off the street for a 
very long period of time.
    My legislation will also increase resources to provide 
training in meth lab cleanup and will increase funding to the 
Drug Enforcement Administration for assistance in lab cleanup. 
Meth labs are essentially toxic waste dumps filled with 
dangerous, unstable chemicals. Handling these labs requires 
special training for our law enforcement people.
    The legislation also creates a number of regional training 
centers to help struggling communities deal with the explosion 
in meth production. My legislation would enhance the ability to 
provide training to local police and sheriffs to meet the 
challenge.
    So together with the funding of the Commerce-State-Justice 
appropriations bill, I feel that we are on the way to helping 
law enforcement in my State and other States in the Midwest to 
make a dent in the meth trade. So, Mr. Chairman, this is a very 
timely hearing and I thank you for the leadership that it 
shows.
    The Chairman. Well, thank you, Senator Grassley.
    I understand that Senator Harkin is missing a markup and 
his statement is only 3 minutes, they tell me. So with the 
permission of the ranking member, we will turn to you at this 
time and take your statement. So we will just take your 
statement at this time, Senator Harkin.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM THE STATE OF 
                              IOWA

    Senator Harkin. I appreciate that, Mr. Chairman, because we 
are marking up the SAMHSA bill, the Substance Abuse and Mental 
Health Services bill, and part of it has to do with 
methamphetamine and I want to get over there.
    The Chairman. That is right.
    Senator Harkin. Thank you very much, Mr. Chairman, for 
inviting me here, and to all of you. I especially want to thank 
you, Mr. Chairman, for your strong leadership both in terms of 
fighting all drugs, but especially on this new epidemic that is 
sweeping this Nation. I really appreciate it.
    The Chairman. Thank you.
    Senator Harkin. And I know all the people in our State 
appreciate it because of your strong leadership, and I commend 
all of you for trying to get this legislation moving.
    I can't add much to what has already been said and I know 
that others will say, except maybe two things. This really is, 
first, Mr. Chairman, approaching epidemic proportions as it 
sweeps across the country. I just noticed the other day in the 
newspaper that all the damage that was done at this recent 
Woodstock and all the burning and the violence, that 
methamphetamine was one of the drugs that was in prevalence at 
that Woodstock.
    Second, it has been reported to us in Iowa that 
methamphetamine is a contributing factor in 80 percent of 
domestic violence cases. In 80 percent of the domestic violence 
cases, methamphetamine is playing a role.
    As Senator Grassley said, in Iowa 320 clandestine meth labs 
confiscated last year, 5 times the number of the year before. 
Already this year, 280 labs have been confiscated in the State 
of Iowa, and so it really is reaching epidemic proportions.
    A number of people have bills in. You, Mr. Chairman, have a 
great bill, S. 1428. Senator Grassley has his bill, S. 1220. 
Senator Ashcroft has his bill, and I have a bill in, too. All 
of them have a lot of similarities to them. I would commend to 
you, Mr. Chairman, two things; first of all, the provision in 
Senator Grassley's bill that focuses on anhydrous ammonia. That 
is not in my bill and it is not in any other bill, but I hope 
that it can be incorporated in whatever legislation you put 
through because it is a dangerous thing that we see in Iowa and 
other States in the Midwest where they are raiding anhydrous 
ammonia tanks and things like that to make meth. So I commend 
that to you in Senator Grassley's bill.
    Senator Ashcroft also has a provision in his bill which is 
not in any of the other bills that I have looked at, and that 
is more funding for the HIDTA's, the high-intensity drug 
trafficking areas, which I also commend to you to try to get 
that funding out there. That is in Senator Ashcroft's bill.
    Again, I thank you, Mr. Chairman, and I also thank you for 
your leadership in the Commerce-Justice-State appropriations 
bill that just recently passed in getting the funding up for 
the Edward Byrne Memorial Grant Program because that money is 
also used to go out to help our local law enforcement officers, 
and at least in my State a lot of it is being used to fight 
this plague of methamphetamine.
    There is one other thing I commend to you, Mr. Chairman, as 
you mark up your legislation. In all of my studies and going 
around with law enforcement on methamphetamine in Iowa, we lack 
some knowledge on how to effectively treat people that have 
used methamphetamine. I have met some of these people that have 
used methamphetamine and I don't think we ought to give up on 
them. They aren't going to be bad the rest of their lives. I 
think some of them can be effectively treated.
    But I found out two things. One, the treatment for 
methamphetamine addiction is much longer than for other kinds 
of----
    The Chairman. It takes up to 3 years of intensive treatment 
once a person gets hooked on methamphetamine.
    Senator Harkin. Yes, I hear it is a long time.
    The Chairman. Maybe more. I don't know. We will have some 
of these experts to tell us here today.
    Senator Harkin. Yes, and some of the experts might tell you 
also about getting NIH to do some more research into more 
effective treatment modalities and intervention programs. So I 
would hope that that also could be part of the legislation.
    Well, Mr. Chairman, again I thank you for your leadership, 
and all of you on this committee for focusing on this new 
plague that is just sweeping across the country, and it is just 
taking a terrible toll, as Senator Grassley said, in our State. 
Thank you.
    The Chairman. Well, thank you, Senator Harkin. We are going 
to try and get all the best provisions we can from all these 
bills together. Everybody here who has a bill deserves credit 
in this area for really, sincerely working on it. So we 
appreciate having you here. Thank you for being here.
    Senator Harkin. Thank you and the committee members for 
focusing on it. I appreciate it.
    The Chairman. We will turn now to Senator Kyl, who is next, 
and then we will go to Senator Feingold.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is interesting that each one of us 
almost seems to be trying to top the next with the stories of 
how this epidemic has affected our own States. And I think it 
is just a testament to the fact that this epidemic truly is 
nationwide, it knows no boundaries, and it is certainly 
becoming very serious.
    Just a couple of things to illustrate the problem in 
Arizona. Last year, DEA spent almost $500,000 in cleaning up 
meth labs in Arizona and trained over 1,600 Arizona law 
enforcement officers in basic lab cleanup and safety, which was 
very, very useful. We held a hearing in Phoenix, a field 
hearing, which actually involved a simulated lab take-down at 
the training facility that is used in Maricopa County.
    And to see all of the garb that has to be involved in 
taking this down, where the officers have to dress up to 
protect themselves, the special breathing equipment--it is 
about $100 per-person cost just to take one of these down. 
About 30 different law enforcement agencies get involved in 
each one of the take-downs because of the different aspects of 
it that are involved. It is really an incredible experience. 
And then when you go in and you see this kind of equipment laid 
out, you realize not only, as Senator Feinstein said, the 
danger of it, but also the environmental fallout.
    Almost a lab a day is being seized in my State of Arizona, 
about 26 per month, which is up 30 percent over last year. Law 
enforcement is seeing an increase in child endangerment cases. 
About a fifth of the meth lab seizures involve young kids found 
at the scene, ranging from toddlers to teenagers.
    Phoenix has the second highest rate for meth emergency room 
admissions in the United States, according to the Drug Abuse 
Warning Network. It has the second highest percentage of 
arrestees testing positive for meth in the United States. And, 
again, each one of us can cite these statistics, but it just 
illustrates how each one of our communities are affected.
    It costs an average of about $4,400 to clean up a meth lab, 
with costs running as high as about $40,000. Clearly, this is 
too much of a burden, especially for some of our smaller 
communities. It takes about 6 to 8 hours to complete an on-
scene investigation, and particularly in rural counties this 
creates a problem.
    In Mojave County, AZ, a small, rural county in the 
northwest part of the State--it is not so small, actually; it 
is over 13,000 square miles in size, but the population is 
small. They seize about one lab per week. This year, they have 
already seized 70 labs. It could double if they actually had 
the resources to do it. So the point is they have been working 
very closely with DEA. I certainly commend Donnie Marshall for 
his excellent work at the agency in fighting the proliferation, 
and commend my colleagues for each one coming up with proposed 
solutions to deal with this at a Federal level.
    Mr. Chairman, again, I think it is a very good thing your 
holding this hearing, and I appreciate the comments that all of 
my colleagues have made and hope that we can make good progress 
in actually getting a grip on this serious problem.
    The Chairman. Thank you, Senator Kyl.
    Senator Feingold.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. I also commend 
you for holding a hearing on this subject. The production and 
distribution of methamphetamine, or meth, is, of course, a 
growing problem in the Midwest, including in my home State of 
Wisconsin. It is particularly pervasive in western and northern 
Wisconsin.
    So it is no surprise to see the leadership of the two 
Senators from Iowa because it is from over the Iowa border that 
our law enforcement people are really very, very concerned 
about the spread of this problem. In fact, the strongest 
concerns I have heard from law enforcement lately in Wisconsin 
are about this very subject.
    Meth is actually similar to another synthetic drug which 
appeared in my home State of Wisconsin in the recent past, 
actually in northeastern Wisconsin, methcathinone, or ``cat,'' 
as it is commonly known. I am glad to report that through the 
very hard work of law enforcement, both Federal and local, 
throughout the upper Midwest, we actually were able to, in 
effect, stop it at the border and made it a relatively isolated 
problem.
    In contrast, however, the use of meth appears to be 
spreading. There can be no doubt that the consequences of 
producing, distributing or using this drug are serious. We have 
taken and must continue to take steps to address the growing 
problem. I am pleased to have been a cosponsor of a 1996 bill 
which later became law that strengthened and enhanced penalties 
for the trafficking of meth.
    While it is important to punish those individuals who 
market meth, the 1996 law also addressed the important issue of 
regulating precursor chemicals, chemicals that are used to 
produce this deadly drug. The 1996 law increased penalties for 
the illegal possession and trafficking of precursor chemicals. 
The law also increased penalties for those individuals who 
endanger the lives of innocent people and threaten the safety 
of law enforcement officers, and also harm the environment by 
operating labs that produce meth.
    In addition, very importantly, we must continue Federal-
local partnerships. In April of this year, as Senator Harkin 
alluded to, the Wisconsin Office of Justice Assistance was 
awarded a $9.5 million Byrne grant for use throughout the State 
to fight crime and the spread of drugs. Part of that grant was 
targeted specifically to develop a multi-State task force to 
fight the spread of meth.
    Clearly, the problems of drugs confronting this Nation are 
complex and challenging. It will require a long-term commitment 
by all of us, and some of my colleagues, as they have 
mentioned, have introduced legislation to strengthen our effort 
to combat meth and I am carefully reviewing them.
    My experience has taught me that it is absolutely vital 
that the Federal Government be a true partner to State and 
local law enforcement. But it has also taught me that we must 
balance law enforcement activity and tough sanctions with 
effective and adequately funded education, prevention and 
treatment initiatives. We must scrutinize efforts to reduce the 
minimum amounts of meth or other drugs that are required to 
trigger mandatory sentencing so that sentences for casual users 
remain proportionate and fair. We do have a prison population 
that has tripled from 1983 to 1993.
    So, Mr. Chairman, this is a terribly important issue and a 
great danger. We must strike a delicate balance between 
punishing offenders and ensuring that users get the treatment 
they need. I want to underscore how serious I believe this 
problem is, and we are feeling it in Wisconsin. Again, I want 
to thank the Chairman and I look forward to working with him 
and the other Members of the Committee who are obviously all 
dedicated to passing effective and sensible legislation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    We will now go to Senator Sessions, who is next.

 STATE OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE OF 
                            ALABAMA

    Senator Sessions. Mr. Chairman, I would just say briefly 
thank you for having this hearing. I think we should deal with 
this. I was involved in prosecution of meth cases and helped 
Alabama change some laws on precursor chemicals that in the 
early 1990's I think made a difference.
    But I believe in Alabama we are now seeing a major 
increase. The numbers I have seen, having visited with Senator 
Ashcroft in Missouri, and I am hearing from others--this is a 
remarkable development. It is an extraordinary increase in an 
illegal drug, comparable I would think only to the spread of 
crack cocaine that happened so rapidly, and I think it deserves 
great attention. Thank you for doing so.
    The Chairman. Thank you, Senator Sessions.
    Our Senator from Wisconsin.

 STATEMENT OF HON. HERBERT KOHL, A U.S. SENATOR FROM THE STATE 
                          OF WISCONSIN

    Senator Kohl. Thank you, Mr. Chairman. As we all know, 
while once primarily a Western problem, meth is moving eastward 
and now ravaging parts of the Midwest, especially States like 
Iowa, Minnesota, and increasingly across the border into my 
State of Wisconsin.
    For example, our State crime lab has nearly tripled the 
number of meth examinations since 1996. Prosecutions have more 
than doubled. Thefts of meth chemical ingredients from 
Wisconsin farmers and retailers are increasing. More police are 
being exposed to health hazards from meth labs. And most 
disturbingly for Wisconsin, there is even meth trafficking now 
at the high school level.
    This, of course, is wrong and unacceptable. It is also a 
bad omen of things to come, so we need to act before meth 
becomes the next crack cocaine epidemic. Of course, Mr. 
Chairman, no single Federal law can hope to stop the problem of 
meth, but we can start to make a difference. Last week, the 
Senate approved my proposal for $1 million in additional 
funding for a meth task force in western Wisconsin.
    On a broader level, today I am cosponsoring your 
Methamphetamine Anti-Proliferation Act which increases criminal 
penalties. Also, next week when we take up meth legislation in 
committee I hope we can take the best aspects of the three meth 
measures--yours, Mr. Chairman, Senator Ashcroft's, and mine, 
along with Senator Grassley's--pass them, and promptly enact 
them into law because, Mr. Chairman, we cannot afford to delay. 
Thankfully, this hearing is an important step forward. I 
appreciate your holding the hearing.
    The Chairman. Well, thank you, Senator Kohl.
    Now, with regard to our last Senator, let me just note that 
Senator Ashcroft has a meth bill that is on the agenda for 
tomorrow. I intend to amend it with what we have here, but what 
I would like to do--and I will order that all committee staff 
get together this afternoon and let's see if we can resolve any 
difference on these meth bills and have a substitute that 
basically we can all support and get out tomorrow.
    But I want to particularly express appreciation for each 
member of this committee who has spoken thus far. Each one of 
you deserves a tremendous amount of credit for being willing to 
do something in this area, and certainly one of the leaders in 
this matter is Senator Ashcroft from Missouri.
    We will turn to you at this time, Senator Ashcroft.

STATEMENT OF HON. JOHN ASHCROFT, A U.S. SENATOR FROM THE STATE 
                          OF MISSOURI

    Senator Ashcroft. Well, Mr. Chairman, I want to thank you 
and I want to thank all of the people who are here today. This 
reflects an understanding of the gravity of the problem of 
methamphetamine. I thank virtually every member of this 
committee who helped us in previous years make small progress 
against this big problem, and we need to continue to do that.
    We have been losing ground in the war against meth, and the 
war against drugs generally. Use by eighth-graders, for 
instance, of marijuana since 1992 has increased 176 percent. 
Cocaine and heroin use among 10th-graders have more than 
doubled. These numbers are intolerable, but sadly there is more 
bad news than that on the drug front. It is the burgeoning 
epidemic in America right now, the epidemic of methamphetamine.
    And it is all over America. It is not a problem that we can 
say is a West Coast problem or a coastal problem. It is 
everywhere. We face the largest drug threat in Missouri as a 
methamphetamine threat, and it may be coming soon to cities and 
towns near you.
    What makes meth so dangerous is that it is cheap and easy 
to make and highly addictive. Most of us in our States have 
been to demonstrations of labs and things like this. Crystal 
meth in the 1990's is what cocaine was--I think Senator 
Sessions said it right--in the 1980's and heroin was in the 
1970's.
    For example, in 1992 DEA agents seized two clandestine meth 
labs in the State of Missouri. By 1994, there were 14 seizures. 
By 1998, there were 679 labs seized in Missouri by DEA agents. 
And I am pleased to see Sheriff Ron Doerge here from southwest 
Missouri. Many local officials have had encounters with 
methamphetamine that didn't involve the DEA, so those numbers 
don't really tell us all. But can you imagine going from 2 
seizures in 1992 to 679 labs being taken down in 1998?
    Meth ensnares our children and endangers us all, and causes 
users to commit other crimes. In 1998, the percentage of 12-
graders who used meth was double the level in 1992. Meth-
related emergency room incidents increased 63 percent over the 
same period. I recently had a conversation with a number of 
local law enforcement officers in Missouri. They estimated that 
as many as 1 out of every 10, or 10 percent, of high school 
students know the recipe for methamphetamine. It is available 
on the Internet, and it is totally unacceptable.
    We have in Congress taken these indicators seriously. In 
the past two appropriations cycles, we have appropriated $11 
million, and then $24.5 million for the Drug Enforcement 
Administration to train local law enforcement in the 
interdiction and cleanup of methamphetamine labs. Despite these 
appropriations, we see a growing problem. It is time that we 
dedicate serious resources to stopping this scourge once and 
for all, and for that reason I introduced what is called the 
DeFEAT Meth Act at the beginning of this session.
    It would authorize $30 million to train local law 
enforcement and assist in the cleanup of meth labs in fiscal 
year 2000, and additional amounts in each year through fiscal 
year 2004. Recently, I am pleased to have had conversations 
with Donnie Marshall, the Acting Administrator of DEA. I am 
pleased he could join us here today. It has become even more 
clear that these resources are sorely needed in our Drug 
Enforcement Administration.
    My bill would also increase the mandatory minimum sentences 
for manufacturing meth. It would increase them substantially if 
someone is injured in the course of crimes involving meth. 
DeFEAT Meth would also include meth paraphernalia in the 
Federal list of illegal paraphernalia. Drug paraphernalia has 
been a crime in other drug settings. We haven't amended the law 
to include meth manufacturing paraphernalia and the like, and 
we ought to.
    By focusing on reducing supply through interdiction and 
punishment, that is a step in the right direction, but it is 
not enough. The legislation would also authorize substantial 
resources for education and prevention specifically targeted at 
the problem of meth. As I said earlier, local law enforcement 
said 10 percent of the students know the recipe for meth. We 
need 100 percent of students to know that meth is the recipe 
for disaster and death.
    The bill that I have sponsored is a simple three-part plan 
to solve the problem--stiffer penalties for making meth; more 
resources for interdiction, education and prevention; and, 
three, a ban on meth paraphernalia. I look forward to working 
together, as the chairman has indicated, to assemble the bill 
to be on the agenda for this week's executive session. I hope 
we can move it in a quick and bipartisan manner. I think this 
is one of the areas where we have been able to cooperate very 
effectively in the past and can do so again in the future.
    I am very pleased that the chairman has introduced his own 
meth initiative, and I think together in some of the areas 
where we overlap we can obviously clean that up. There are some 
minor differences. My bill authorizes more resources for 
interdiction and training, and it includes additional 
authorization of funds for education and prevention. But I 
think we can get these things together, and particularly with 
Senator Harkin, who also was here with us today.
    I think that working together we have an opportunity to 
move forward a package which we will be able to carry to the 
floor and ask the Senate to pass so that America can take 
charge in this effort of interdicting and curtailing the deadly 
impact of methamphetamine in our culture.
    I thank the chairman.
    The Chairman. Thank you, Senator Ashcroft.
    We will finish with Senator Biden, who has certainly done a 
lot in this area.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. Thank you, Mr. Chairman. I apologize for 
being late. It seems as though you and I have been working on 
this one issue for a long, long time. Way back in the early 
1990's, back in the good or bad old days, depending on your 
perspective, when I was chairman of this committee and the 
Democrats were in control, you joined me in a report that we 
issued warning everyone that meth was coming.
    We talked about the Bloods and the Cripps and how they were 
moving into the Northwest and moving into your State. Your 
drive-by shootings started to go up in the beautiful State of 
Utah. We found we were having pollution problems in streams and 
areas in Idaho and Montana, and it was coming East and not 
everybody paid attention to it.
    I remember talking with my friend from Iowa at the time and 
he was aware. I mean, we were talking about that it was going 
to hit Iowa, and it hit Iowa big. It hit Iowa not only in terms 
of use, but the manufacture. And unfortunately this is 
something that we saw coming; we knew it was coming. It wasn't 
like the crack epidemic where the only person I recall talking 
about the crack epidemic coming from the islands was a guy from 
New York named Moynihan. He was the one saying, hey, crack is 
coming, and we all kind of looked at Moynihan like, right, yes, 
it is a problem, but we will get to it when we can.
    We have had a lot of lead time on this. As a matter of 
fact, the Hatch-Biden methamphetamine bill in 1996 made some 
positive steps. That is why I and others have joined you again, 
Mr. Chairman, in making an additional effort here for a new 
methamphetamine bill. I will not take the time to go into 
detail about the bill because we are going to have time to 
debate that and hopefully mark up a bill.
    But, you know, one of the things that is happening here is 
this Methamphetamine Anti-Proliferation Act, which is the new 
effort here, is attempting to address the problem of 
amphetamine as a meth substitute by making the penalties for 
manufacturing, importing or exporting the traffic of 
amphetamine equivalent to those established for methamphetamine 
in the 1996 law.
    The two drugs are nearly identical. They differ only in one 
chemical. Whereas methamphetamine is made from ephedrine, a 
substance found in some over-the-counter cold remedies, 
amphetamine is produced in a different way. And I won't bore 
you with all the details. Our witnesses know all about this, 
but the bottom line of these drugs that are the designer drugs, 
in effect, out there is an interesting phenomenon. Just ask any 
cop. The phenomenon is there is incredible violence associated 
with methamphetamine. It is the aspect of the drug that makes 
it different, different even than cocaine. It is something that 
the cops in my State will tell you if they have a call that 
there is a suspect who they believe is under the influence of 
methamphetamine, they send three or four cops. They don't send 
a single cop, literally, not figuratively. It is a different 
deal.
    And so not only is it spreading, not only do young people 
think it is not a dangerous drug--that is the frightening part 
of this. An incredible number of the people the Senator from 
Missouri referred to, young people, think this is not like 
heroin, this is not like cocaine. In fact, in many ways it is 
worse than both.
    So I agree with the Senator from Missouri. There is no 
reason why we can't, in a bipartisan way, attack this, but 
let's be honest with one another. This is going to be hard. 
This is a hard deal. This is not like we can cut it all off at 
the border. There is not a lot of heroin grown in the United 
States, so if we had a great interdiction policy theoretically 
we could impact on its consumption drastically. This isn't the 
same deal and it is going to be harder in many ways.
    But I compliment you, Mr. Chairman. Like I said, it seems 
like we have been doing this a long time. I guess that is 
reason to be discouraged, but another side of it is it is a 
reason to be encouraged because we are making incremental 
progress here, and hopefully we will come out of these hearings 
with a solid piece of legislation. Although I am signed on with 
you to the Hatch-Biden alternative, I am not married to that. 
If there is a better idea, I am sure you are open to it, and I 
am open to it, but hopefully we can make some movement.
    Again, I thank the chairman for having this hearing, and 
his time and the witnesses being here. I am anxious to hear 
what they have to say.
    The Chairman. Thank you, Senator Biden. I have personally 
appreciated working with you all these years on the Judiciary 
Committee. You have been, if not the leader, certainly one of 
the few leaders in this country who has really made a 
tremendous impact in some of these areas. We are going to get 
staff together today and see if we can come up with something 
that would bring us all together so that we can pass this bill 
tomorrow because there is no reason for us to not solve all 
these problems to the best of our abilities.
    The Chairman. At this point, I would like to enter into the 
record a statement of Senator DeWine.
    [The prepared statement of Senator DeWine follows:]

      Prepared Statement of Hon. Mike DeWine, a U.S. Senator From 
                           the State of Ohio

    Mr. Chairman, I'd like to commend you for holding this important 
hearing today on a topic which should concern all of us--the rapid 
growth of methamphetamine trafficking. My concern has lead me to become 
an original cosponsor of ``the Methamphetamine Anti-Proliferation Act 
of 1999,'' sponsored by our Chairman, as well as the rural 
methamphetamine bill sponsored by Senator Grassley, and the High 
Intensity Drug Trafficking methamphetamine emphasis bill sponsored by 
Senator Ashcroft. I am hopeful that in the end we will develop a strong 
compromise.
    Throughout my career in public service, I have seen anti-narcotic 
strategies that have had varying levels of success. But I have come to 
learn that when it comes to the drug problem, we must never take our 
eye off the ball, because it continues to change and evolve. That said, 
the issue we are examining in today's hearing is part of our continuing 
effort to respond to a new trend in drug abuse--the alarming rise in 
domestic production and consumption of methamphetamines.
    I am particularly interested in seeing that law enforcement has the 
personnel and resources needed to tackle this serious problem. Our 
efforts must include rural parts of America which have been hit 
particularly hard by this emerging crisis. We should also assist in 
providing training for local law enforcement to combat methamphetamine.
    Our hearing today is an opportunity to focus on the issues that 
will impact how we will fight the war on drugs in the next century. As 
new methods for drug distribution emerge, such as dispersing recipes 
via the Internet, the law must respond. We need to empower our law 
enforcement to prosecute those who would knowingly disseminate the 
dangerous recipe for methamphetamine on the Internet for an unlawful 
purpose.
    Finally Mr. Chairman, it is clear that the production of 
methamphetamine is actually a very dangerous process in and of itself. 
When druglords decide to risk the lives of innocent bystanders and to 
degrade the environment to manufacture their illegal products, they 
should be held accountable for harm both to people and the environment.
    I look forward to being informed by the fine panel we have 
assembled today. Thank you all for coming.

    We are really pleased to have a tremendous panel of 
witnesses here today. Our first witness is Donnie R. Marshall, 
the Acting Administrator of the Drug Enforcement 
Administration. If you would come to the table, we would 
appreciate it.
    Our second witness is Paul Warner, our U.S. attorney for 
Utah doing a great job out there, and everybody is holding Paul 
in high esteem because of the work he is doing in a nonpartisan 
way.
    Our third witness is Katina Kypridakes, manager of the 
Precursor Compliance Unit at the California Bureau of Narcotic 
Enforcement. We are particularly happy to have you here with us 
today as well.
    Our fourth witness is Sheriff Ron Doerge, who is the Newton 
County sheriff, in Neosho, MO. Sheriff, we really appreciate 
having you here because you are right on the ground, knowing an 
awful lot of what is going on in this area, and we appreciate 
it.
    Our final witness today is one of my constituents for whom 
I have high regard, John Vasica. He is a father of a 
methamphetamine victim from Sandy, UT. John, we are honored to 
have you here. We look forward to hearing your testimony.
    I think what I am going to do before you give your 
testimony, Mr. Marshall, is have you come up and explain these 
methamphetamine lab materials, if you would, and let people 
know just a little bit about what this means.

 PANEL CONSISTING OF DONNIE R. MARSHALL, ACTING ADMINISTRATOR, 
 DRUG ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE, 
WASHINGTON, DC; PAUL M. WARNER, U.S. ATTORNEY FOR THE DISTRICT 
   OF UTAH, SALT LAKE CITY, UT; KATINA KYPRIDAKES, MANAGER, 
  PRECURSOR COMPLIANCE PROGRAM, CALIFORNIA BUREAU OF NARCOTIC 
   ENFORCEMENT, SACRAMENTO, CA; RON DOERGE, SHERIFF, NEWTON 
       COUNTY, MO, NEOSHO, MO; AND JOHN VASICA, SANDY, UT

                STATEMENT OF DONNIE R. MARSHALL

    Mr. Marshall. I would be happy to.
    The Chairman. If you will point this out to the audience, 
and if you television people want to come over through here, 
that is fine with us, and even behind the witnesses if you can 
get a better picture, because I think it is important for 
people to see this.
    Why don't you borrow Mr. Vasica's mike and stand over on 
that side so that the media can report this because this is 
important. We have just made the case that this is being done 
all over America, and it is easy to do it, especially if you 
look at the Net. It is absolutely incredible the evil forces in 
this land.
    We will turn the time over to you, John.
    Mr. Marshall. Thank you, Senator, for the opportunity. I 
think the real point here about any methamphetamine lab is the 
simplicity of this thing. You see the glassware here is 
obtainable in almost any chemical supply house. You see that a 
lot of the ingredients here, such as household lye, epsom salt, 
Coleman fuel, Prestone starting fluid, are just obtainable at 
an auto parts house, at a retail store such as a Wal-Mart or 
places like that.
    You have phosphorous that is used in some of the recipes, 
which is a simple road flare. You have ephedrine and 
pseudoephedrine that are used in many of the recipes and that 
is obtainable as a cold remedy, actually, in pharmacies and 
grocery stores and convenience stores all over the country.
    Some of these labs are even simple enough that they use 
Mason fruit jars, in some cases actually paper cups from your 
local fast-food place. It is a process that is just really so 
simple. With the advent of the Internet, as several of you have 
referred to, the recipes are out there, all the ingredients, 
and the hardware, the glassware, et cetera, are obtainable 
very, very easily. And that is one of the reasons that it is so 
difficult to control all this is that a lot of these things 
have so many legitimate uses.
    There are several methods for producing this. There is the 
ephedrine-pseudoephedrine method, there is the phenyl-2-
propanol method, and there is the phenylpropanolamine method. 
And I am not a chemist, of course, and each of these are 
separate, slightly different formulas and slightly different 
procedures, but the bottom line is that they all produce a very 
easy process, a very potent product.
    And one of the points that has already been made is the 
difference between amphetamine and methamphetamine. It is a 
simple thing of using different chemicals. Amphetamine and 
methamphetamine are slightly different strengths, a slightly 
different isomer, but nonetheless just as destructive and just 
as potent.
    The Chairman. Just as addictive.
    Mr. Marshall. Just as addictive, yes, and just as, I think, 
destructive to the users, and with the violence and the child 
abuse and neglect and those sorts of things that we see 
associated with methamphetamine equally associated with 
amphetamine.
    The Chairman. With these materials right here, you could 
actually produce a quantity of meth that could be used to 
undermine our youth?
    Mr. Marshall. Yes. The smaller labs would result--the 
simple things using one or two beakers or the paper cups would 
produce about 2 ounces. You graduate to the beakers, and even 
with larger beakers of this sort, that moves you into the super 
lab. And this is not really a super lab setup, but the super 
labs are capable of producing--what we call a super lab is 10 
pounds or more. Some of them we have seized can actually 
produce hundreds of pounds.
    Senator Biden. What does 2 ounces do? If you don't mind, 
Mr. Chairman, give the folks a sense of what 2 ounces can do.
    Mr. Marshall. I am not sure, Senator, about the number of 
dosage units for 2 ounces. But if my math is correct, I believe 
2 ounces would supply an individual user for several weeks at a 
time.
    Senator Biden. That is the point. I mean, it is not a 
single dose.
    The Chairman. Right.
    Mr. Marshall. No. Two ounces is multiple doses, actually.
    The Chairman. Tell us a little bit about this police outfit 
you are standing by. What is the significance of that?
    Mr. Marshall. This is an illustration of the clandestine 
lab gear that we use to actually go in and take down the 
laboratories. We find that there are many toxic chemicals in 
these places. They use the lye, they use acetone, ether, those 
kinds of things. A lot of the stuff that they use is very 
flammable. Some of it is explosive.
    They use sodium metal, for instance, and if it comes in 
contact with water, it is an instant explosion. And then if you 
combine that with the flammable chemicals, you see the hazard 
here. Many of these laboratories are booby-trapped. Many of 
these laboratories are guarded by the traffickers, and so what 
we have here is protective gear which is not only antiballistic 
gear, but it also has the respiratory protection. And hopefully 
this provides the individual officer going into these 
laboratories the kind of protection he needs from the flammable 
and explosive capability, as well as the fumes and exposure to 
those hazardous vapors.
    The Chairman. That is very good. We appreciate you taking 
time to do that. We will be happy to take your testimony now.
    Mr. Marshall. Thank you very much, Mr. Chairman and members 
of the committee. It is really a pleasure and an honor to be 
here to discuss this critical issue in our country today. I 
would like to provide the committee over the next few minutes 
with information on how, where and why this explosion in 
methamphetamine and the tragedies that go with it have 
occurred, and how Federal law enforcement, along with our State 
and local partners, are trying to work together across the 
Nation to address the problem.
    We have already seen the laboratory equipment up there and 
the protective gear, and I would just reiterate the importance 
of the simplicity of this whole procedure. Now, methamphetamine 
is not really a new problem in the United States. I saw it in 
Austin, TX, when I was a rookie DEA agent almost 30 years ago.
    But what we have seen in about the last 5 years is a 
tremendous upsurge in trafficking and abuse. It started on the 
West Coast. It expanded rapidly to the Midwest and to a lesser 
extent to the southeastern United States. Our statistics show--
and I believe I have one chart over here--that in 1993--Senator 
Ashcroft has already referred a little bit to this--we seized a 
total of 218 methamphetamine labs that DEA was involved in. The 
total has increased significantly to the point where in 1998 
DEA was involved in over 1,600 methamphetamine laboratories, 
and to date, in 1999, we have seized over 1,200.
    Now, what this chart shows actually is a combination of 
Federal and State and local laboratory seizures. So you can see 
there--I believe it is in the blue is the DEA-only seizures, or 
seizures in which we were involved. The red figure is the 
figure in each State that State and local police seized and 
reported to us. Now, I would caution here that even these 
numbers are not necessarily all-inclusive because there are 
more than 16,000 police agencies and these are the ones that 
have come to our attention.
    Now, with DEA, our methamphetamine arrests have also 
increased, from 1,893 arrests in 1993 to over 7,500 arrests in 
1998. That is an increase of 300 percent in just 5 short years. 
Today, we see that about 21 percent of all DEA arrests are for 
methamphetamine violations.
    In 1998, the year that is shown on this chart, of the 1,627 
labs that were seized by DEA, 71 of those were classified as 
super labs capable of producing 10 pounds or more. And we 
estimate that in spite of the proliferation of the number of 
these smaller labs, it is actually the super labs that produce 
over 80 percent of the methamphetamine that we see today.
    The Chairman. What would 10 pounds of methamphetamine be 
worth on the street?
    Mr. Marshall. It is my recollection that it is about 
between $50 and $10,000 per pound of methamphetamine, depending 
on the part of the country.
    The Chairman. You are talking $50 to $100,000. So one of 
these super labs can make $50 to $100,000 in a relatively short 
period of time?
    Mr. Marshall. Yes, and I will check on those figures and be 
sure that my prices are right.
    The Chairman. Sure.
    Mr. Marshall. There are two major forces today fueling this 
methamphetamine. You have got, first, the super lab 
methamphetamine trafficking or manufacture, and this is fueled 
by organized groups that are based in or have association with 
trafficking groups in Mexico. The second problem that we have 
is a series of widely scattered smaller labs by independent 
producers predominantly based in rural areas around the 
country.
    Now, the traffickers in Mexico have become really powerful 
and they dominate the methamphetamine trade in the United 
States. These groups have risen to power over the last few 
years. Their rise to power is described in my written 
statement, but the main Mexico-based organization that is 
involved in methamphetamine is the Amezcua brothers. They 
produce methamphetamine on a very large scale and ship it into 
the United States. The Amezcua brothers and some of their 
Mexico-based operatives have actually be indicted in the United 
States, but thus far they have not been extradited to face 
trial here.
    These organizations in Mexico have long-established poly-
drug distribution networks, and they have had those networks in 
place with regard to marijuana and heroin trafficking for many 
years. And they have used those as a basis to move into 
numerous communities around the Nation, particularly in areas 
where Mexican workers are involved in industries like 
agriculture and meat packing. So it is now common to find 
traffickers from Mexico that have established themselves in 
many U.S. communities.
    Now, these traffickers, many of them, are illegal aliens 
and they blend in very easily with the Mexican community in 
these places. The vast majority of this Mexican community are 
law-abiding citizens, and these traffickers simply blend in 
with them and distribute huge quantities of methamphetamine.
    The production level of the smaller laboratories that are 
often described by us as mom-and-pop labs--the level is 
relatively low, an ounce here and there. However, a large 
number of these labs that we are seeing around the country 
really create probably the most drastic environmental and law 
enforcement concerns, and it really is a problem that has just 
overwhelmed not only DEA but our State and local counterparts.
    So methamphetamine, as we have heard already, is the only 
drug that we know of which an addict without much chemical 
expertise can make on his own, purchasing all of these things 
in retail stores and basically getting the recipe off the 
Internet or from friends.
    Now, the cleanup of these clandestine laboratories across 
the country costs DEA and other government agencies millions of 
dollars. One of the Senators quoted a figure of about $2,700, I 
believe. My figures are slightly different than that, but the 
bottom line is DEA has spent almost $11 million over the last 2 
years to clean up almost 4,000 clandestine laboratories.
    Now, I would like to talk a little bit about our strategy. 
Our strategy encompasses several elements. It includes 
targeting and building cases against the major traffickers, not 
only in Mexico but their surrogates operating in the United 
States. It includes assisting State and local agencies in 
making cases against those traffickers operating in their 
communities and neighborhoods.
    It involves partnering with State and local enforcement to 
assist in training and cleanup of those laboratories. And last, 
and perhaps the one that has really had somewhat of an impact, 
is controlling the precursor chemicals necessary for the 
production in Mexico and the United States. Thanks to this 
committee and the Congress and the generous budgets that DEA 
has gotten over the last several years, we have been able to 
allocate an additional 287 positions and about $35 million to 
methamphetamine efforts across the country over the last 
several years.
    Training is one place that we spend a lot of that money. We 
provide clandestine laboratory safety and certification 
training not only for our own agents, but for State and local 
officers as well. Since 1997, we have conducted a total of 62 
laboratory certification schools for 2,300, almost 2,400 DEA 
agents and State and local people across the country.
    I would like to talk a little bit now about the situation 
as we are seeing it right now in the country. We are cautiously 
optimistic, Senator, that our chemical control efforts 
supported by the 1996 Act, combined with aggressive law 
enforcement efforts in the local police arena--we are confident 
that we are seeing the beginning of some results from there.
    We are seeing a decrease in methamphetamine purity, and 
particularly in the Mexican-operated super labs. And I believe 
that that is perhaps a reflection of the difficulty in getting 
chemicals, along with the aggressive law enforcement. But in 
spite of that success, that could be fleeting, and the success 
against the Mexican labs is really a different problem from the 
smaller lab-based methamphetamine problem. That is going to be 
something that is much, much more difficult to get a handle on.
    Now, the law enforcement agencies in the Midwest and 
California are reporting on this purity issue that about a year 
ago they were seeing methamphetamine in the 80-percent-pure 
range. And now we are seeing in most places that the Mexican 
methamphetamine purity has dropped to about 30 percent. And 
again I want to reiterate that I believe that is largely the 
fruits of what we have been able to do as a result of the 
Methamphetamine Control Act of 1996, and I thank this committee 
for your support of that issue.
    So, in summary, what I would like to say is that while I am 
cautiously optimistic that we are making progress, I think that 
some of the measures that are in these various bills can build 
upon the progress that we have already made. I think that we 
can use this present success and the additional measures really 
as a foundation to move forward and hopefully make even more 
progress in the future, thanks to your support.
    I appreciate the opportunity to appear here today and at 
the appropriate time would be happy to try to answer any 
questions.
    The Chairman. Thank you, and we appreciate it.
    [The prepared statement of Mr. Marshall follows:]

                Prepared Statement of Donnie R. Marshall

    Mr. Chairman, Members of the Committee: I am pleased to have the 
opportunity to appear before you today to discuss the growing dangers 
that methamphetamine trafficking, use and abuse, and the spread of 
clandestine drug laboratories, pose to the citizens of our country. It 
is fair to say that methamphetamine is one of the most significant law 
enforcement and social issues facing our nation today, and it has 
affected specific regions of the country in a dramatic fashion.
    The recent escalation of methamphetamine production and trafficking 
coincided with the growing power of the trafficking organizations based 
in Mexico after the arrests of the major leaders of the Cali mafia in 
the summer of 1995. Methamphetamine trafficking and use have increased 
exponentially over the past five years, and my testimony today will 
provide the committee with information on how, where and why this has 
occurred, and how federal law enforcement is working with state and 
local partners across the nation to address the methamphetamine 
problem.
    While methamphetamine is not an entirely new problem in the United 
States, about five years ago an upsurge in methamphetamine trafficking 
and abuse began taking hold in many regions of the nation, starting on 
the West Coast, and rapidly expanding into the Midwest and, to a lesser 
extent, the Southeastern United States. DEA statistics indicate that in 
1993, DEA seized a total of 218 methamphetamine labs. This total 
increased to 263 labs in 1994; 327 labs in 1995; and 879 labs in 1996. 
In 1997, DEA participated in the seizure of 1,451 clandestine labs, 98 
percent of which were methamphetamine labs. In fiscal year 1998, DEA 
seized over 1,600 methamphetamine laboratories, and to date in fiscal 
year 1999, we have seized over 1,200.
    Clandestine drug labs have been a concern for law enforcement since 
the 1960's when outlaw motorcycle gangs began producing their own 
methamphetamine in these labs and dominated the distribution of the 
drug within the United States. Although clandestine drug laboratories 
can also be used to produce other types of illicit drugs (i.e. PCP, 
MDMA, LSD, etc.), methamphetamine has always been the primary drug 
manufactured in the vast majority of labs seized by law enforcement. In 
1998, 71 (4.4 percent) of the 1,627 clandestine methamphetamine labs 
seized by DEA were classified by the agency as ``super labs.'' A 
``super lab'' is a clandestine laboratory operation which is capable of 
producing 10 pounds or more of methamphetamine in a single production 
cycle, which is indicative of operation by a structured organization. 
Of the 71 ``super labs'' seized by DEA nationwide in 1998, 57 of these 
laboratories were seized in the State of California alone. DEA 
estimates that methamphetamine ``super labs'' currently produce over 80 
percent of the methamphetamine available today in the United States.
    The violence associated with methamphetamine trafficking and use 
has also produced a collateral impact on the crime statistics of 
communities across the U.S., particularly in the western United States. 
Television viewers nationwide recently watched live footage of a 
paranoid methamphetamine addict who stole a tank from a National Guard 
armory and went on a car crushing rampage in the San Diego area. 
Another methamphetamine addict in New Mexico beheaded his son after 
experiencing hallucinations in which he believed his son was Satan. In 
1997, in Contra Costa County, near San Francisco, police found that 
methamphetamine was involved in 447 cases of domestic violence.
    Since 1994, the number of DEA related methamphetamine arrests has 
increased precipitously, rising from 1,893 arrests in 1993 to 7,587 
arrests in 1998, an increase of over 300 percent. Today, roughly 21 
percent of all DEA arrests are for methamphetamine related drug 
violations, a total only surpassed by cocaine related arrests, which 
encompass roughly 45 percent of overall agency arrest totals.
               methamphetamine production and trafficking
International organized crime groups based in Mexico
    Today, there are two major forces fueling the methamphetamine trade 
within the United States: first, the well-organized, high volume, 
``super lab'' methamphetamine manufacturing and trafficking groups 
based in Mexico; and second, a widely scattered series of local 
methamphetamine producers, predominantly based in rural areas around 
the country.
    Traffickers based in Mexico have had a long history of involvement 
in poly-drug production and smuggling. For years, these powerful and 
violent groups produced and smuggled marijuana and heroin into the 
United States, dominating the heroin trade in the Southwest and Midwest 
regions of the nation. During the early 1990's, the Cali drug mafia 
reached an accommodation with trafficking groups based in Mexico who 
agreed to transport multi-ton quantities of cocaine into the United 
States. At first, transporters from Mexico were paid in cash, but 
eventually they negotiated to be paid in cocaine, which they 
distributed themselves within the United States. This series of changes 
in the cocaine trade, along with the arrest of the powerful Cali 
leaders in 1995 and 1996, greatly strengthened the organizations from 
Mexico.
    The Increased power and sophistication of the Mexican traffickers 
led them to seek to successfully dominate all phases of the 
methamphetamine trade, from beginning to end. Because methamphetamine 
is a synthetic drug created from a mixture of chemicals, traffickers 
based in Mexico did not have to rely on traffickers in other nations to 
provide coca or finished cocaine for distribution. These groups 
initially had ready access to precursor chemicals on the international 
market. These chemicals have fewer controls in Mexico and overseas than 
in the United States, a fact which allowed the organizations to produce 
large quantities of high purity methamphetamine in clandestine 
laboratories, both in Mexico and southern California. Methamphetamine 
organizations based in Mexico have developed international connections 
with chemical suppliers in Europe, Asia, and the Far East, and with 
these connections, they have been able to obtain ton quantities of the 
necessary precursor chemicals (ephedrine and pseudo-ephedrine) to 
manufacture methamphetamine and amphetamine. In recent years, with the 
growth of DEA led international efforts to control the flow of bulk 
ephedrine and pseudo-ephedrine, Mexican traffickers have also turned to 
tablet forms of these precursors to manufacture their product and now 
frequently buy their products from rogue chemical suppliers in the 
United States.
    The Amezcua-Contreras brothers, operating out of Guadalajara, 
Mexico, head a methamphetamine production and trafficking organization 
with global dimensions. Their drug trafficking organization is one of 
Mexico's largest smugglers of ephedrine and clandestine producers of 
methamphetamine. By exploiting the legitimate international chemical 
trade, this organization holds the key to producing methamphetamine on 
a grand scale. Information developed by U.S. and Government of Mexico 
(GOM) investigations indicate that the Amezcua organization obtains 
large quantities of the precursor ephedrine, utilizing contacts in 
Thailand and India, which they then supply to methamphetamine 
laboratories in Mexico and the U.S. The activities of this group have 
significantly impacted a number of U.S. cities and have contributed to 
the growing methamphetamine abuse problem in the U.S.
    Until their arrests by the GOM in June 1998, the Amezcua 
organization was directed by Jesus Amezcua, and supported by his 
brothers, Adan and Luis. During 1998, all GOM charges against Luis and 
Jesus Amezcua were dismissed by Mexican courts due to insufficient 
evidence. Both Luis and Jesus Amezcua were then ordered released by the 
courts but were re-arrested by the GOM based on U.S. provisional arrest 
warrants. These U.S. provisional arrest warrants are currently the only 
charges holding Luis and Jesus Amezcua. In January and February 1999, 
the GOM ruled that Luis and Jesus Amezcua were extraditable to the U.S. 
Both defendants have filed a judicial appeal against extradition, and 
their fate is pending on the outcome of Mexican judicial rulings. On 
May 19, 1999, Adan Amezcua, who was originally arrested in November 
1997 on weapons charges and then rearrested in March 1999 for money 
laundering violations, was released from prison. The money laundering 
charges against Adan were dismissed due to a lack of evidence. In spite 
of the continued incarceration of Jesus and Luis Amezcua in Mexico, the 
Amezcua-Contreras trafficking organization still maintains active cells 
in the United States. The center of the Amezcua's trafficking 
activities in the U.S. originates in California, either as a 
manufacturing point or as an initial storage site after methamphetamine 
is imported from Mexico.
    In addition to readily available precursor chemicals which allow 
groups from Mexico, such as the Amezcuas, to produce thousands of 
pounds of methamphetamine in laboratories in Mexico and California, the 
methamphetamine organizations based in Mexico also have well-
established, polydrug distribution networks in place throughout our 
country. Trafficking organizations from Mexico have infiltrated 
numerous communities around the nation, particularly areas where large 
numbers of Mexican workers are involved in the meat packing business or 
other agricultural industries. It is common now to find hundreds of 
traffickers from Mexico, some of them illegal aliens, established in 
communities like Boise, Des Moines, Omaha, Charlotte and Kansas City, 
distributing multi-pound quantities of methamphetamine.
    The impact of methamphetamine trafficking on these communities has 
been devastating. In Iowa, health officials expressed deep concern 
about the thousands of infants who have been exposed to methamphetamine 
before their births. Furthermore, an expert associated with Marshall 
County Iowa's Juvenile Court Services estimated that in 1998, one third 
of the 1,600 students at Marshalltown High School had tried 
methamphetamine. Methamphetamine production also poses a grave problem 
to the communities in which the drug is located. Several years ago, 
during a major case, DEA discovered a working methamphetamine 
laboratory at an equestrian center where children were taking riding 
lessons. In another case, a laboratory capable of producing 180 pounds 
of methamphetamine was discovered within a thousand feet of a junior 
high school. This type of discovery is being made more and more 
frequently by DEA and other law enforcement agencies working 
methamphetamine cases.
Domestically produced methamphetamine
    While the vast majority of methamphetamine available in the United 
States is produced and trafficked by the well-organized groups from 
Mexico, domestic production of methamphetamine by United States 
citizens is also a significant problem. The production level of these 
laboratories, often makeshift and described as ``mom and pop'' labs, is 
relatively low; however, the large number of these labs and the 
environmental and law enforcement concerns associated with their 
operation, poses major problems to state and local law enforcement 
agencies, as well as to DEA.
    Our nation's growing methamphetamine lab epidemic can also be 
attributed to the evolution of technology and the increased use of the 
Internet. In the past, methamphetamine chemists closely guarded their 
drug recipes; but with modern computer technology and the increasing 
willingness of chemists to share their recipes, this information is now 
available to anyone with computer access. Methamphetamine is one of the 
only widely abused controlled substances which an addict, without 
chemical expertise, can make on his own. A cocaine or heroin addict 
cannot make his own cocaine or heroin, but a methamphetamine addict 
only has to turn on his computer to find a recipe for the chemicals and 
developmental processes required to make the drug.
    Methamphetamine is, in fact, a very simple drug to produce. A user 
can go to retail stores and easily purchase the vast majority of the 
ingredients necessary to manufacture the drug. Items such as rock salt, 
battery acid, red phosphorous road flares, pool acid, and iodine 
crystals can be utilized to substitute for some of the necessary 
chemicals. A clandestine lab operator can utilize relatively common 
items such as mason jars, coffee filters, hot plates, pressure cookers, 
pillowcases, plastic tubing, gas cans, etc., to substitute for 
sophisticated laboratory equipment. Unlike Fentanyl, LSD, or other 
types of dangerous drugs, it does not take a college educated chemist 
to produce methamphetamine. In fact, less than 10 percent of those 
suspects arrested for the manufacture of methamphetamine are trained 
chemists, which may be one reason we see so many fires, explosions, and 
injuries in clandestine lab incidents.
    Despite the fact that the majority of these laboratories produce 
relatively small amounts of methamphetamine, the proliferation of this 
type of laboratory has imposed terrible burdens on law enforcement 
agencies and departments in states like Missouri. In 1992, only two 
clandestine lab seizures in Missouri were reported to DEA; by 1997, 
Missouri was ranked the number one state in per capita methamphetamine 
lab seizures. In 1998, 679 clandestine lab seizures were reported in 
Missouri, tying the state for second, with Utah (Nevada was first) in 
per capita clandestine laboratory seizures. In addition, the states of 
Arkansas, Iowa, Oklahoma, Oregon, Kansas and Arizona each seized in 
excess of 200 methamphetamine laboratories in 1998. Smaller ``mom and 
pop'' lab operations are even a significant problem in California, 
despite the state's high concentration of ``super labs.''
    In some respects, the methamphetamine problem is synonymous with 
the clandestine laboratory problem (as previously mentioned, over 98 
percent of clandestine labs seized are now methamphetamine labs) and 
this issue has been the focus of much media attention in recent months. 
Although the methamphetamine problem and the clandestine lab problem 
are both part of the same drug abuse mosaic, in reality, they are 
somewhat different issues which may require a different law enforcement 
response in order to successfully combat the spiraling increases in 
both arenas.
    The threats posed by clandestine labs are not limited to fire, 
explosion, poison gas, drug abuse, and booby traps; the chemical 
contamination of the hazardous waste contained in these labs also poses 
a serious danger to our nation's environment. Each pound of 
methamphetamine generated in a clandestine lab can result in as much as 
five pounds of toxic waste, which clandestine lab operators routinely 
dump into our nations streams, rivers, and sewage systems to cover up 
the evidence of their illegal operations. Because of the possibility of 
explosions and direct contact with toxic fumes and hazardous chemicals, 
law enforcement officers who raid clandestine drug labs are now 
required to take special hazardous materials (HAZMAT) handling 
training. Today, the police officer who improperly disposes toxic waste 
materials could be exposing himself to civil liability under the 
federal Resource Conservation and Recovery Act (RCRA).
    The chemical reactions that occur during the manufacture of 
methamphetamine also produce chemical vapors that can permeate into the 
walls, carpets, plaster, and wood of the houses and buildings in which 
they are located. The cleanup of these clandestine laboratories across 
the nation costs DEA and other government agencies millions of dollars 
annually. The average clandestine laboratory costs approximately $3,000 
to cleanup. Large laboratories can result in costs exceeding $100,000. 
Such large sums of money could easily bankrupt a small sheriffs 
department, which is why it is essential for these smaller law 
enforcement entities to involve state and federal authorities in the 
larger clandestine lab investigations during the early stages of case 
development.
    The size of lab does not matter when it comes to the danger level 
involved in a clandestine laboratory raid. The smaller labs are usually 
more dangerous than the larger operations because the cooks are 
generally less experienced chemists who often have little regard for 
the safety issues that arise when dealing with explosive and poisonous 
chemicals. However, the size of a clandestine laboratory can be a 
significant factor in the costs associated with the hazardous waste 
cleanup. Larger production laboratories usually have larger quantities 
of toxic chemicals, and therefore, more significant hazardous waste 
disposal charges.
                dea's strategy to fight methamphetamine
    DEA's methamphetamine strategy encompasses several elements, 
including targeting and building cases against the major 
methamphetamine traffickers based in Mexico, and against their 
surrogates operating in the United States today; assisting state and 
local law enforcement agencies in making cases against methamphetamine 
manufacturers and traffickers working in the United States; partnering 
with state and local law enforcement to assist with training and 
laboratory clean-up; and controlling the precursor chemicals necessary 
for methamphetamine production in Mexico and the United States.
    Since fiscal year 1998, due to the generous contributions of the 
President and Congress, DEA has targeted over 297 positions (160 
Special Agents) and $35.6 million on methamphetamine enforcement 
efforts across the United States. While the majority of this funding 
has been used for personnel resources, remaining funds have been used 
for the purchase of clandestine laboratory vehicles, the continued 
development of DEA's Clandestine Laboratory Database and the cleanup of 
clandestine methamphetamine laboratories. Today, DEA provides 
contracted clandestine laboratory cleanup services for DEA Special 
Agents as well as state and local law enforcement personnel across the 
country. Funding for this purpose is provided to the agency by the 
President and the Congress through the Assets Forfeiture Fund, DEA 
direct appropriation and the COPS program. In 1997, DEA provided for 
the clean-up of 1,383 clandestine drug laboratories nationwide, at a 
cost of $6.8 million. In 1998, this total rose to 1,919 clandestine 
laboratories at a cost of $5.8 million. To date, in 1999, DEA has 
provided for the clean-up of 1,812 clandestine laboratories at a cost 
of $5.0 million.
        dea clandestine laboratory safety/certification training
    In 1987, DEA created a special training unit for clandestine 
laboratory safety/certification training which is located at the U.S. 
Marine Corp Base at Camp Upshur, Quantico, Virginia. This unit 
originated in response to concerns from DEA management that the 
agency's Special Agents and task force officers were being exposed to 
hazardous, toxic, and carcinogenic chemicals while executing raids on 
clandestine drug laboratories. Some DEA field offices, primarily in the 
state of California, were reporting that Special Agents and officers 
appeared to be suffering serious health problems as a result of both 
short and long-term exposure to the chemical and toxic fumes 
encountered when processing these drug laboratories. The U.S. Code of 
Federal Regulations, 29 C.F.R. 1910.12, now mandates that all federal, 
state, and local law enforcement officers must receive at least 24 
hours of hazardous chemical handling training (specific Occupational 
Safety, Health and Administration (OSHA) standards for courses and 
equipment), prior to entering a clandestine drug laboratory.
    Reports from DEA and state police records indicate that at least 
five or six meth producers are now being killed every year from 
explosions and/or fires in clandestine labs. Many more receive serious 
burns or develop serious health problems from clandestine laboratory 
explosions and fires. There have been reports of apartment complexes 
and a $3,500,000 hotel which burned down as the result of drug lab 
``cooks'' that turned into chemical time bombs. Recent years have seen 
an increase in the number of injuries to untrained police officers who 
investigate and/or dismantle clandestine laboratories without utilizing 
the proper safety equipment.
    Reports of property damage and injuries to children from drug lab 
disasters have also increased throughout the nation. During 1997, the 
Kansas City area fire department authorities were reporting fires, on 
an almost monthly basis, that originated from clandestine 
methamphetamine laboratory operations or the use of precursor 
chemicals. In Independence, Missouri, the Chief of Police reported that 
during the last two years, at least six individuals have been killed in 
fires that resulted from clandestine methamphetamine laboratories. 
Police reports from California and Oklahoma indicate an increase in 
deaths from invisible poisonous phosphine gas.
    In response to the U.S. Code of Federal Regulations which mandates 
that all law enforcement officers must have completed a clandestine lab 
safety school prior to entering a methamphetamine lab, DEA has 
initiated an aggressive training schedule to increase the number of 
clandestine laboratory safety schools provided to state and local 
police throughout the nation. The DEA Clandestine Laboratory Safety 
Program conducts its safety/certification schools at the DEA 
Clandestine Laboratory Training Facility in Quantico Virginia. An 
auxiliary regional training facility has also been established for the 
Midwest U.S., near Kansas City. This specialized unit frequently 
conducts in-service training and seminars for law enforcement groups 
such as the Clandestine Laboratory Investigators Association (CLIA) and 
the International Association of Chiefs of Police (IACP). In addition, 
the DEA Clandestine Laboratory Training Unit provides police awareness 
training seminars to law enforcement organizations across the U.S., as 
well as the annual re-certification training which is mandated by 29 
C.F.R. 1910.12.
    Students who graduate from the DEA Clandestine Lab School in 
Quantico, Virginia, are issued over $2,000 in specialized clandestine 
lab safety gear. Some of the items issued include: Level III nomex 
fire-resistant ballistic vests; nomex fire-resistant jackets, pants, 
and gloves; chemical resistant boots; air purified respirators; combat 
retention holsters; special flashlights; chemical resistant clothing 
for conducting hazard assessments and processing drug labs; and goggles 
to prevent eye injuries in the event a suspect throws acid or other 
dangerous chemicals at law enforcement personnel. Since 1997, DEA has 
conducted a total of 62 clandestine laboratory certification schools 
for 2,384 Special Agents and state and local law enforcement personnel 
across the country.
    Today, we are cautiously optimistic that our chemical control 
efforts, combined with aggressive anti-methamphetamine law enforcement 
efforts in the local police arena, have been the catalyst for the 
decrease in methamphetamine purity. However, success in combating the 
smaller lab-based methamphetamine problem may be much, more difficult 
to achieve. As previously indicated, the dawn of the Internet has 
released a plethora of methamphetamine formulas for the public to 
choose from, and everything that is needed to manufacture 
methamphetamine can be purchased at your local department store, where 
federal and state law enforcement officials have to rely on voluntary 
compliance measures instituted by industry.
    In recent months, several DEA offices in the Midwest and California 
have reported that the purity of Mexican methamphetamine has 
significantly dropped in the majority of controlled purchases and 
seizures. Many law enforcement agencies in the Midwest and California 
are now reporting that the previous high purity (80 percent+ range) of 
Mexican methamphetamine has now dropped to less than 30 percent. 
Information provided by DEA's System to Retrieve Information from Drug 
Evidence (STRIDE) shows that nationally, the average purity for 
methamphetamine has dropped from 60.5 percent in 1995 to 27.2 percent 
in 1999.
           impact of the methamphetamine control act of 1996
    Without strong and innovative laws to help federal, state and local 
law enforcement meet the challenges posed by methamphetamine production 
and trafficking, law enforcement's mission would be all the more 
difficult. One of the most important pieces of legislation developed in 
our nation's ongoing fight against methamphetamine trafficking and 
abuse is the Methamphetamine Control Act of 1996 (MCA), which was 
developed under the leadership of Chairman Hatch and other members of 
the Judiciary Committee, most prominently Senators Feinstein and Biden. 
This act specifically targets the diversion of ephedrine combination 
drug products and drug products containing pseudoephedrine and 
phenylpropanolamine. As I noted earlier, beginning in 1996, seizures of 
methamphetamine laboratories began to rise dramatically and early on, 
almost all of these laboratories were using pseudoephedrine drug 
products as their source of precursor material. The MCA subjected these 
products to full regulatory control at the manufacturer and distributor 
level, allowing us to track the production and sale of these products 
nationally. It also provided specific exemptions at the retail level so 
that legitimate consumers of these products were not affected.
    In addition, the MCA provided the impetus for a number of major 
pharmaceutical retailers to adopt voluntary measures, such as 
restrictions on the volume of sales of these products, to individual 
customers. The Drug Enforcement Administration and Wal-Mart have formed 
a partnership to control large-scale purchases of three key over-the-
counter (OTC) products, pseudoephedrine, ephedrine, and 
phenylpropanolamine, used in the clandestine manufacture of 
methamphetamine and amphetamine. After meeting with DEA representatives 
at a national meeting of Wal-Mart pharmacy managers in Kansas City, 
Missouri, on January 16, 1997, Wal-Mart management moved to restrict 
sales of these allergy/cold/diet preparations which have been diverted 
from legitimate use and seized in clandestine labs throughout 
California, Western, Southwestern, and Midwestern States.
    Another major feature of the MCA was the requirement that mail 
order distributors report their sales to individual users, to DEA on a 
monthly basis. These firms had been a major source of pseudoephedrine 
products for methamphetamine laboratory operators. This reporting 
requirement, coupled with the fact that these firms were now required 
to become registered with the DEA, has had a major impact on the 
activities of these firms.
    Overall, the new controls implemented through the MCA, augmented by 
voluntary measures instituted by industry, have made it increasingly 
difficult for large laboratory operators to obtain substantial 
quantities of precursor materials domestically. In fact, while the 
number of laboratories seized has continued to increase, this increase 
is attributed to the growth in the number of small laboratories 
producing ounce quantities of methamphetamine. Laboratories of this 
size are still able to obtain sufficient cough and cold drug products 
containing the necessary methamphetamine precursors at the retail 
distribution level to satisfy their needs, despite the voluntary 
efforts of industry.
                               conclusion
    Methamphetamine, and other controlled substances which are produced 
in clandestine laboratories provide an increasing threat to drug law 
enforcement personnel as well as the citizens of our nation. The vast 
power and influence of international drug trafficking syndicates, 
particularly those based in Mexico, continues to grow. Their impact on 
communities around our nation is devastating.
    Domestically-based drug traffickers who engage in methamphetamine 
production and trafficking are also a major threat to our nation's 
stability. Since methamphetamine is relatively easy to produce, and 
with the proliferation of information on methamphetamine production 
available on the Internet, unscrupulous individuals will continue to 
take part in this illegal and dangerous enterprise. Traffickers only 
need $1,000 worth of chemicals to make $10,000 in methamphetamine in a 
trailer, a hotel room or house in any location within the United 
States.
    As the number of clandestine labs operated by both internationally-
based criminal organizations and ``mom and pop,'' small, independent 
groups continues to escalate, the chances of narcotics officers, or 
other uniformed personnel, inadvertently encountering clandestine labs 
will become more and more prevalent. In the years to come, DEA will 
continue to work to improve its efforts in the methamphetamine arena to 
ensure a safe future for both our law enforcement personnel dedicated 
to addressing this dangerous problem as well as our citizens. I thank 
you for providing me with this opportunity to address the Committee and 
I look forward to taking any questions you may have on this important 
subject.

    Senator Biden. Mr. Chairman.
    The Chairman. Yes, Senator Biden.
    Senator Biden. I would like to apologize to you and the 
witnesses. We are marking up a bill in the Foreign Relations 
Committee and I am going to go downstairs for that. I have to 
go there because I am the ranking member there. I will probably 
miss the testimony, but I will be back to ask questions.
    As the DEA knows, meth has made it to the East. The largest 
lab in the Northeast was busted last year in little Dover, DE, 
50 pounds seized. So this is a universal problem. But I do want 
to apologize to the witnesses for not being here to listen to 
their testimony. And I think Senator Ashcroft is probably going 
to go to the same markup.
    Senator Ashcroft. I am going to try and stay here until the 
call comes.
    Senator Biden. Well, since he has an amendment for the 
markup that I disagree with, I hope he stays here the whole 
time. [Laughter.]
    I think you should concentrate on this, Senator, where we 
agree, and I will tell you what happened at the markup.
    Anyway, thank you very much.
    The Chairman. Thank you, Senator Biden.
    Mr. Warner, we are honored to have you here and we look 
forward to taking your testimony at this time.

                  STATEMENT OF PAUL M. WARNER

    Mr. Warner. Thank you, Mr. Chairman, and good morning 
members of the committee. I want to thank Chairman Hatch for 
the kind introduction. I greatly appreciate the opportunity to 
testify before the committee on the critical problem of 
methamphetamine and some of the steps that we are taking in 
Utah to deal with this threat to public safety. I intend to 
keep my oral remarks brief, and therefore I would request that 
my entire statement be made a part of the record.
    First, I can tell you without exaggeration that the meth 
problem in Utah today is our most serious threat to public 
safety. Let me provide you with just a few statistics that help 
demonstrate the severity of the problem. I know, Mr. Chairman, 
you are aware of many of these.
    As of last week, with a little more than 2 months remaining 
in fiscal year 1999, the DEA Metro Narcotics Task Force in Salt 
Lake City had made 308 arrests on meth-related charges. This is 
a 14-percent increase over all of fiscal year 1998 and a 34-
percent increase over fiscal year 1997. Similar trends are seen 
in the number of clandestine labs seized by the task force.
    Perhaps the most troubling numbers, however, relate to the 
quantities of meth seized. They have increased dramatically 
over the last 3 years as well. Let me emphasize that these 
numbers do not include arrests and seizures made by other 
Federal agencies such as the FBI. Additionally, meth abuse is 
driving much of the other crime in Utah, such as burglaries and 
theft. The commission of these crimes can almost invariably be 
traced to the support of a meth habit. Finally, the very 
existence of a meth lab in the community poses a significant 
danger, as has been discussed earlier, as an environmental 
hazard. Cleanup costs drain precious law enforcement resources.
    Now, there are two key components to the meth problem in 
Utah. The first component is the home-grown problem, 
clandestine meth labs. Indeed, I am currently being told that 
now Utah has the dubious distinction of having the highest per-
capita number of illegal meth labs of any State in the Union. 
This part of the problem involves U.S. citizens operating 
relatively small labs and producing comparatively small amounts 
of very pure meth. At least 213 such labs have been taken down 
in Utah so far in fiscal year 1999.
    The second component of the meth problem in Utah is what we 
call Mexican meth. This component of Utah's problem, and our 
response to it, bares directly on controlling methamphetamine 
proliferation in Utah and also throughout the rest of the 
United States. Meth is being produced in large quantities in 
Mexico, as has also been noted previously. Criminal aliens 
enter the United States illegally and then come to Utah 
bringing meth with them. Let me take a moment to describe some 
of what we have been doing to address both the meth and the 
criminal alien problem, which are obviously related.
    First, we have created a new drug section in our office, 
establishing a high priority for meth prosecutions and adding 
new resources provided by Congress. This section is now staffed 
with 5 attorneys, including 2 who are dedicated to OCDETF 
cases. So far in fiscal year 1999, we have indicted 
approximately 165 defendants. I estimate approximately 75 
percent of these cases were meth-related.
    In addition to these efforts within the Federal law 
enforcement establishment, we have also actively supported 
State and local efforts as well. For instance, a number of 
defendants were charged in State court with methamphetamine 
offenses as a result of our OCDETF investigations. Moreover, 
Federal law enforcement in Utah is strongly supporting the 
Rocky Mountain HIDTA, which in Utah is dedicated nearly 
exclusively to meth cases.
    The second prong of our initiative involves prosecuting 
criminal alien cases. Now, I understand that this can be a 
sensitive subject and that the link between these cases and the 
meth problem may not be readily apparent to some. However, it 
is my view that because of the prevalence of Mexican meth, 
these types of cases are intimately intertwined and that we 
cannot get a handle on the meth problem without also attacking 
the criminal alien problem as well. We are aggressively 
pursuing these cases.
    Again, we are showing results. Last year, we prosecuted 313 
reentry cases in Utah. The vast majority of the criminal alien 
cases we prosecute involve defendants with drug-related 
convictions, as well as lengthy criminal histories. Many of 
these are methamphetamine-related offenses.
    Finally, Mr. Chairman, if I could make a general comment on 
where we go from here, either we want to confront this problem 
or we don't. If we do, then adequate resources must be provided 
to do the job, and I can promise you at least in Utah that if 
you give us these resources, we will get the job done. I know 
my fellow U.S. attorneys around the country share my commitment 
to this as well.
    Thank you, Mr. Chairman, for giving me this opportunity and 
at the appropriate time I would be pleased to respond to 
questions.
    The Chairman. Thank you, Mr. Warner.
    [The prepared statement of Mr. Warner follows:]

                  Prepared Statement of Paul M. Warner

    Good morning, Mr. Chairman and Members of the Committee. And thank 
you, Chairman Hatch, for that kind introduction. I have the honor of 
being the United States Attorney for the District of Utah, and I 
greatly appreciate the opportunity to testify before the Committee on 
the critical problem of methamphetamine trafficking, its production and 
abuse, as well as some of the steps we are taking in Utah to deal with 
this threat to public safety.
    With your permission, Mr. Chairman, I will summarize the major 
points I would like the Committee to understand, and I request that my 
entire statement be made a part of the record.
    I have been a prosecutor for almost a quarter of a century, and I 
have been a federal prosecutor for the past eleven years. Before the 
President nominated me to be the U.S. Attorney for Utah, I had served 
in the Utah U.S. Attorney's office as First Assistant, as Chief of the 
Criminal Division, and as Violent Crimes Coordinator for the office. I 
can tell you without exaggeration that the meth problem in Utah today 
is the most serious criminal threat to public safety we face.
    Let me provide you with just a few statistics that demonstrate the 
severity of the problem.
    As of last week, with a little more than two months remaining in 
fiscal year 1999, the DEA/Metro Narcotics Task Force in Salt Lake City 
has made 308 arrests on meth related charges. This is a 14 percent 
increase over the 270 Task Force arrests for meth in all of fiscal year 
1998, and a 34 percent increase over the 229 arrests in fiscal year 
1997.
    Similar trends are seen in the number of clandestine labs seized by 
the DEA/Metro Task Force. As of last week, 212 labs had been seized in 
fiscal year 1999, compared with 188 in all of fiscal year 1998 and 154 
in fiscal year 1997. Again, the year-to-date figures for fiscal year 
1999 are approximately 37 percent higher than all of fiscal year 1997.
    The most troubling numbers, however, relate to the quantifies of 
meth seized. As of last week, the DEA/Metro Task Force has seized 79.6 
pounds of methamphetamine in the Salt Lake area. In fiscal year 1998, 
75.2 pounds were seized. And in fiscal year 1997, only 28.9 pounds were 
seized. As you can see, the amount of meth seized in the first ten 
months of fiscal year 1999 is 175 percent more than in all of fiscal 
year 1997. Based on a 1996 national price of $500 to $2,400 per ounce, 
this translates into between $636,800 and $3,056,640 in meth seized off 
our streets in the Salt Lake City metro area. And let me emphasize that 
these numbers do not include arrests and seizures made by other 
agencies, such as the FBI.
    Make no mistake, methamphetamine manufacturing and trafficking are 
not so-called ``victimless crimes''. We know by sad experience that the 
drug business is always accompanied by guns and violence. Additionally, 
meth abuse is driving much of the other crime in Utah, such as 
burglaries and theft. For instance, our postal theft and fraud cases in 
Utah have increased almost exponentially. Between January 1 and 
September 1, 1998, our office indicted a total of 26 postal cases. By 
comparison, between January 1 and July 22, 1999, we have already 
indicted 52 such cases--twice the number in a shorter time span. These 
crimes represent losses to individuals and businesses in the tens of 
thousands of dollars, and the commission of these crimes can almost 
invariably be traced to the support of a meth habit.
    Nor is this a problem unique to my District. For instance, Postal 
Inspectors in Arizona attached to the Phoenix Volume Mail Theft Task 
Force have handled thousands of mail theft cases in the past several 
years. These officers tell me they can only recall one or two cases 
that were not meth related, and report that during searches incident to 
their investigations, they invariably find meth and paraphernalia 
indicating meth use.
    Finally, the very existence of a meth lab in a community poses a 
significant danger as an environmental hazard to that community. Clean-
up costs drain precious law enforcement resources.
    Why is meth so pernicious? The overriding factors are that it is 
effective, highly addictive, and perhaps most importantly, cheap. As 
one of our postal theft defendants who was addicted to meth recently 
told us, he could spend $20 on cocaine and be high for an hour, or 
spend the same $20 on meth, and be high for a week.
    There are two key components to the meth problem in Utah. While I 
believe that these components certainly exist in other areas of the 
country that are experiencing a serious meth proliferation problem, 
they also rest on factors somewhat unique to Utah. The first component 
is the home grown problem--the proliferation of clandestine meth labs. 
Indeed, Utah has had the dubious distinction of having the highest per 
capita number of illegal methamphetamine manufacturing operations of 
any State in the Union.
    This part of the problem involves U.S. citizens operating small 
labs and producing comparatively small amounts of very pure meth. As I 
have noted, at least 212 such labs were taken down in Utah so far in 
fiscal year 1999. Meth lab establishment has been aided by the ready 
availability of precursor chemicals in Utah. Fortunately, this is 
beginning to change somewhat, as the legislature has taken steps to 
impose sales restrictions on these precursors to reduce their 
availability. This, combined with aggressive enforcement, hopefully 
will begin to gradually reduce the prevalence of labs. However, we all 
must recognize that as long as there is profit in manufacturing meth, 
clandestine labs will continue to persist.
    The second component of the meth problem in Utah is what we call 
``Mexican meth,'' a term that refers not necessarily to the country of 
origin but to the predominant ethnicity of the meth ``cookers.'' It 
results in part from our geographic location as a convenient 
transshipment point. The result is a significant number of what we call 
pipeline cases. This component of Utah's problem, and our responses to 
it, bear directly on controlling methamphetamine proliferation in Utah 
and throughout the United States. Meth is being produced in massive 
quantities in Mexico and in large labs in California and other western 
states. Utah's proximity to the national border, and the convergence of 
three primary travel corridors--1-70, 1-80, and 1-15--within the state 
combine to make Utah uniquely situated to serve as a major 
transshipment point of this Mexican meth. Unfortunately, we are finding 
that much of the drug is staying in Utah and other Inter-Mountain 
states as well. It is also an unfortunate fact that much of this 
particular component is a direct result of illegal entry by criminal 
aliens into the United States, who then come to Utah.
    Let me take just a moment to describe some of what the Utah U.S. 
Attorney's office has been doing to address both the meth and the 
criminal alien problems, which are related. As you know, Senator Hatch, 
when I took office as U.S. Attorney, I established two prosecutive 
priorities. These priorities are meth and aggravated reentry 
immigration cases. With the support of Main Justice and the Congress, 
these initiatives are starting to bear fruit.
    First, I was able to obtain two new drug prosecutors, which allowed 
me to establish within the office's Criminal Division a new drug 
section. Utilizing targeted resources provided by Congress and 
allocated by the Executive Office for U.S. Attorneys, this section is 
now staffed with 5 attorneys, including two who are dedicated to OCDETF 
cases. Even while still staffing up, the results of this section can 
already be seen. For instance, so far in fiscal year 1999, we have 
indicted approximately 165 defendants. I estimate that for 
approximately 75 percent of these defendants, meth was either the 
principal controlled substance or one of the controlled substances 
represented in the indictments.
    As a reflection of the growing problem with methamphetamine in Utah 
and the commitment by federal law enforcement to attacking the problem, 
allow me to provide a comparison of defendants indicted in OCDETF cases 
within the last two years. In fiscal year 1998, 38 total defendants 
were indicted in the District of Utah through OCDETF investigations, 
many of whom were indicted for methamphetamine offenses. By comparison, 
so far in first ten months of fiscal year 1999, OCDETF investigations 
have resulted in the indictment of nearly 80 defendants, and nearly all 
of those defendants were indicted for a meth offense.
    In addition to the efforts solely within the federal law 
enforcement establishment, we have also actively supported state and 
local efforts as well. For instance, a number of defendants were 
charged in state court with methamphetamine offenses as a result of our 
OCDETF investigations. Moreover, federal law enforcement in Utah is 
strongly supporting the Rocky Mountain HIDTA initiative, which in Utah 
is dedicated nearly exclusively to meth cases. Our state HIDTA 
prosecutor is carrying a substantial felony caseload, and since 
October, 1998, has filed over 200 state felony charges against 110 
defendants. Additionally, since being cross-designated as a Special 
Assistant United States Attorney in April of this year, the HIDTA 
prosecutor has indicted 7 defendants in federal court on meth related 
charges.
    The point of relating these numbers is not only to inform the 
Committee of what we are doing to tackle the meth problem in Utah, but 
also to emphasize the severity of the problem. Even with the 
substantial and ever increasing number of defendants and cases we are 
handling, we are only scratching the surface of the problem--there is a 
seeming endless supply of new cases.
    The same can be said of the second prong of our initiative, which 
involves aggressively prosecuting criminal alien cases. I understand 
that this can be a sensitive subject, and that the link between these 
cases and the meth problem may not be readily apparent to some. 
However, it is my view that because of the prevalence of Mexican meth, 
and the convenience of Utah as transshipment point, these types of 
cases are intimately intertwined, and that we cannot get a handle on 
the meth problem without also attacking the criminal alien problem as 
well.
    Thanks to the commitment of this Committee and the commitment of 
the Attorney General, we have added personnel resources in the U.S. 
Attorney's office as well as at the INS to aggressively pursue these 
cases. Again, we are showing results. In fiscal year 1996, our office 
indicted 80 criminal alien cases. In fiscal year 1997, we indicted 194 
such cases, in fiscal year 1998, 313, and to date in fiscal year 1999, 
135. The vast majority of the criminal alien cases we are doing involve 
defendants with drug trafficking convictions, as well as lengthy 
criminal histories. In addition to the immigration offenses, many of 
these are methamphetamine related cases. Our program has been 
successful. In fact, it has been so successful that other Districts 
have expressed an interest in replicating it. For instance, I 
understand that the U.S. Attorney for the Southern District of 
California has a similar initiative in San Diego, and that it has been 
successful there.
    Finally, Mr. Chairman, if I could make a few general comments on 
where we go from here. As I have said, we are only scratching the 
surface of the meth problem that is out there. There seems to be a 
bottomless supply of work for my office and for all of the federal law 
enforcement community, as well as for our state and local counterparts. 
My first suggestion is that now is not the time to cut back on 
resources devoted to this effort. While I realize that this is not the 
central focus of this hearing, I would like to note that the funding 
levels provided by the Senate-passed fiscal year 2000 Department of 
Justice appropriations bill for the U.S. Attorneys, the FBI, and the 
DEA, among others, are significantly below the President's request. 
Cuts of this magnitude would undermine Federal law enforcement efforts. 
Either we want to confront this problem, or we don't. If we do, then 
adequate resources must be provided to do the job. And I promise you, 
at least in Utah, if you give us the resources, we will get the job 
done. I know my fellow U.S. Attorneys share my commitment as well.
    In conclusion, Mr. Chairman, our meth problem in Utah is severe. 
And while some aspects of the problem are unique to my District, the 
meth problem certainly is not. Yet, there are steps we can and are 
taking to tackle the problem. It is a problem in Utah that we must 
tackle on two fronts--that of the home-grown, clandestine lab, and also 
the so-called Mexican meth. With sufficient--not extravagant, but 
adequate--resources, federal law enforcement in partnership with our 
state and local colleagues can turn the corner on the proliferation of 
methamphetamine in our communities.
    Thank you, Mr. Chairman, and I would be pleased to answer any 
questions from the Committee.

    Senator Grassley. Mr. Chairman, can I ask permission to put 
in the record a statement by the Agricultural Retailers 
Association on combating methamphetamine production?
    The Chairman. Without objection, we will put that in the 
record at the appropriate place.
    Senator Grassley. Thank you.
    [The statement referred to follows:]

      Prepared Statement of the Agricultural Retailers Association

    Mr. Chairman, and members of the Senate Committee on Judiciary, I 
appreciate the opportunity to provide the views of the Agricultural 
Retailers Association (ARA) on combating methamphetamine proliferation. 
ARA represents nearly 1,000 member companies, operating out of more 
than 7,000 locations, providing farms and other customers with plant 
nutrients, crop protectants, seed, feed and other supplies. ARA members 
also provide agronomic, environmental and technical services to ensure 
proper management of crop inputs, including custom application of plant 
nutrients such as anhydrous ammonia and crop protection products.
    This statement also represents the views of the Alliance of State 
Agribusiness Associations, which is composed of 19 state agri-business 
organizations who represent retail farm supply, feed, fertilizer, and 
grain firms across the country. The Alliance works closely with ARA on 
various legislative and regulatory issues of national significance to 
the retail farm supply industry.
    At the outset, we would like to offer our strong support for 
specific provisions in legislation (S. 1220) introduced by Senator 
Charles Grassley that would make the transport of anhydrous ammonia 
across state lines for the purpose of manufacturing methamphetamine, a 
federal offense. In addition, S. 1220 would allocate $500,000 to 
research aimed at discovering a chemical deterrent to be combined with 
anhydrous ammonia that will nullify its use as a reagent in the 
methamphetamine production process while maintaining its efficacy for 
use in agriculture.
    Clandestine drug makers obtain small amounts of anhydrous ammonia 
needed by draining it from nurse tanks used by agricultural retailers 
to deliver the product to the farm for use as fertilizer. This theft 
and illicit use of anhydrous ammonia has posed real concerns to 
retailers and their farmer customers.
    Unfortunately, our industry has been unintentionally caught up with 
the menacing problem of methamphetamine proliferation. The common 
method for small-scale illegal production of methamphetamine involves 
the use of precursor chemicals obtained from commonly available cold 
medicines. Other precursor chemicals such as sodium or lithium metal 
are used to provide a chemical reaction.
    The other material needed is anhydrous ammonia. Anhydrous ammonia 
is an efficient source of nitrogen. Nitrogen from ammonia plays an 
especially important role as a constituent of chlorophyll which is 
necessary for photosynthesis and plant growth. It is popular with 
farmers because it is the lowest cost form of nitrogen fertilizer 
available.
         industry task force formed to address anhydrous theft
    As a result of this growing problem, ARA, along with the State 
Alliance, formed an anti-meth task force composed of agricultural 
retailers, equipment manufacturers and fertilizer manufacturers in 
October of 1998. The task force developed a vision to eliminate the use 
of anhydrous ammonia as an ingredient in the illicit production of 
methamphetamine. In considering various goals and objectives, the task 
proposed the following recommendations:

  1. Pursue the potential use of an additive that could be added to 
    make the use of anhydrous ammonia unusable or undesirable for 
    methamphetamine production.

  2. Propose the development of a comprehensive communication and 
    education program to ensure that agricultural retailers and farmers 
    are fully aware of theft, how to recognize when a theft has 
    occurred, and who to contact in the case of theft.

  3. Work through state alliance members to foster greater coordination 
    between agricultural retailers and local law enforcement agencies.

  4. Serve as a clearinghouse for states in support of state 
    legislation that will provide liability protection to retailers 
    from equipment tampering and make the theft of any amount of 
    anhydrous ammonia a felony.

  5. Provide retailers information on various mechanical and security 
    measures that would provide varying levels of theft deterrence.

    With the development of these recommendations, the industry task 
force has taken a number of specific steps. First, the task force 
developed an industry white paper on the theft of anhydrous ammonia in 
order to provide a better understanding of the fertilizer itself as 
well as how it is used in the meth production process.
    Second, the task force prepared and delivered several thousand 
brochures to agricultural retailers across the country to alert them to 
the signs of theft; how to respond to suspicious activity; how to deter 
theft at dealerships. These brochures were also provided to farmers to 
raise their awareness of the problem.
    Third, the task force has worked with state and federal law 
enforcement authorities. At the federal level, ARA has had continual 
contact with officials from the Drug Enforcement Agency and the White 
House Office of National Drug Control Policy. ARA and DEA worked 
together to develop a Department of Justice ``Alert'' on how to 
identify ``suspicious purchases'' made by individuals involved with 
meth production.
    Fourth, the task force has evaluated various types of deterrence 
that could be used to enhance security at a retailer's facility. The 
task force evaluated options such as lighting, fencing, and the use 
valve-locking devices for anhydrous ammonia nurse tanks. While each 
option provides some level of deterrence, they are also costly to 
install.
    Fifth, the task force gathered chemists from industry, the academic 
community and law enforcement to investigate the possibility of an 
additive that can be added to make anhydrous ammonia unusable or 
undesirable for meth production. It is hoped that federal funding can 
be obtained to further this investigation.
    Finally, the task force has served as a clearinghouse for several 
states, particularly in the Midwest, which have adopted tough penalties 
for theft of anhydrous ammonia and/or tampering of anhydrous ammonia 
equipment.
                      need for federal legislation
    While the task force has made much progress in addressing the theft 
of anhydrous ammonia, there is further effort needed to accomplish its 
full objectives. While various states have adopted tougher laws to 
combat theft of ammonia, these laws are not uniform from state-to-state 
and have encouraged theft in a state with lesser penalties and 
interstate transport to an adjoining state where it is used in the meth 
production process.
    To illustrate the point, we would offer an example. In late May, 
three individuals from Missouri entered the state of Illinois to a 
retailer facility in the southwest part of the state with the intention 
of stealing anhydrous ammonia. Local law enforcement had staked out the 
facility and arrested the three individuals. At the time, the state of 
Missouri had enacted tougher penalties for theft of anhydrous ammonia 
in 1998. A St. Louis Post Dispatch story noted that the individuals 
knew that stealing anhydrous ammonia was a felony in their state but 
not Illinois. [A new tougher law had passed in Illinois in early 1999 
but has not yet been signed into law.] This particular facility has 
been hit by thieves more than 35 times in 1999 alone.
    A federal statute making the theft of anhydrous ammonia and 
transporting it across state lines for purposes of illicit drug 
production a felony would provide a broad deterrent for thieves who 
``cherry pick'' states knowing that their penalties are less harsh.
    Secondly, the pursuit of a chemical additive to deter the use of 
anhydrous ammonia in the meth production process would likely be the 
most effective deterrent of all options considered by the task force. 
However, it is a complicated and exhaustive process to investigate and 
test various alternatives.
    Not only must the additive be effective in making anhydrous ammonia 
unusable in the meth production process, it must also not alter the 
agronomic efficacy of the product as fertilizer for agricultural 
purposes. Moreover, the additive must not adversely impact fertilizer 
storage or application equipment. There is an urgent need for federal 
assistance if we are to be able to comprehensively pursue this 
investigative process.
    Iowa State University has been involved with the task force in its 
initial testing of additives. The legislation proposed by Sen. Grassley 
would provide for DEA to enter into a formal agreement with Iowa State 
University to permit the continuation and expansion of its current 
research into the development of possible additives. It would also 
authorize $500,000 for DEA to carry out the agreement.
                                summary
    Mr. Chairman, we appreciate the Committee's strong interest in 
developing appropriate legislation that will effectively combat the 
proliferation of methamphetamine in our cities and small rural 
communities. We are hopeful that the legislation will include the above 
provisions that will stop the theft of anhydrous ammonia and resolve 
this growing problem.
    Again, thank you for the opportunity to express our views. We stand 
ready to respond to any questions of you and Committee members.

    The Chairman. Ms. Kypridakes, we are happy to have you 
here, honored to have you here, and look forward to your giving 
us your expertise in this area.

                 STATEMENT OF KATINA KYPRIDAKES

    Ms. Kypridakes. Thank you, Mr. Chairman. Chairman Hatch and 
members of the committee, first, thank you for allowing me to 
bring information that I hope is pertinent and helpful to the 
purpose of your hearing today. The information I will give you, 
which I call the California perspective, is, because of 
California's unique, albeit dubious position as a source 
country for methamphetamine, somewhat predictive of the ever 
changing face of this problem.
    It is a perspective which has been molded from the 
collective State law enforcement consciousness that displays 
California as both a negative and positive example for the 
Nation, negative insofar as our State continues to lead the 
Nation in clandestine laboratory seizures, in turn providing an 
ongoing source of methamphetamine trafficked across the 
country, and positive as the State has led the national fight 
against methamphetamine, while at the same time continuing to 
bear the brunt of the illegal drugs' destructive effects.
    Before looking at the impact of the drug not only in 
California but on the Nation as a whole, I would like to 
briefly touch on some of the history of not only 
methamphetamine but amphetamine. This once obscure drug is now 
recognized across the United States as one of the most 
destructive illegal drugs ever known. Yet, despite its recent 
notoriety nationally, methamphetamine has a long and ugly 
history in California.
    Since California's first methamphetamine lab seizure in 
1967, law enforcement's fears about this drug were confirmed 
then and continue to be confirmed at what was then brought to 
light from the Haight-Ashbury Free Clinic, where some of the 
pioneering work in drug abuse recognition and counseling was 
initiated.
    What was originally a ``hippie'' counterculture environment 
producing methamphetamine proceeded to become predominantly 
controlled by outlaw motorcycle gangs such as the Hell's 
Angels. The Hell's Angels then steadfastly maintained control 
of the manufacturing and distribution of large quantities of 
this drug until the mid-1980's, when gradually law enforcement 
officials in California began seeing Mexican laboratory 
operators and multiple-pound quantities of the drug appear.
    Gradually, over a period of 5 to 10 years during the 
1980's, several things occurred which gave the Mexican cartels 
growing dominance in the methamphetamine industry. First, the 
aggressive and violent nature of the Mexican traffickers 
literally forced and out-priced the motorcycle groups out of 
the production business. Secondarily, cheap and sometimes 
coerced Mexican labor from across the border was imported into 
California to run large-scale commercial laboratory operations.
    Once law enforcement authorities caught on to the illegal 
use of chemicals which were being routinely used, strict 
regulation packages were enacted by California which closely 
regulated and monitored precursor chemicals. At the same time, 
however, Mexico had no, and continues to have no precursor 
chemical regulations of their own. Hence, necessary chemical 
precursors for the manufacture of methamphetamine began flowing 
across the Mexican border, mixed in with other industrial 
chemicals used for legitimate production of goods and services.
    Telling you a little bit about the problem and what we see 
today, labs are predominantly of--what we find today are 
predominantly the ephedrine and pseudoephedrine reduction type, 
whose product is six times stronger than the phenyl-2-propanol 
method, or P2P labs which were once operated by outlaw 
motorcycle gangs.
    What has evolved over the past 10 years in California is 
that law enforcement officers see primarily two very distinct 
kinds of laboratories. The first type is, as has been 
previously noted here, the industrial size or the super labs 
capable of producing 5 to 10 times the amount of 
methamphetamine that has been routinely produced by 
conventional drug laboratories of the Hell's Angels.
    From these super labs or these more commercial 
laboratories, if you will, run exclusively by and for Mexican 
drug trafficking organizations, our Bureau estimates that just 
these labs alone are capable of producing over $2 million per 
week in methamphetamine. Some drug trafficking organizations go 
so far as to specialize in facilitating the production of meth 
by providing laboratory sites complete with lab apparatus. 
While routinely producing approximately 15 pounds per cook, 
these laboratories could easily produce up to 500 pounds if 
they wanted to produce that.
    These organizations have developed distribution of their 
product by using the already established distribution networks 
for heroin, cocaine and marijuana. And as is shown in the chart 
provided to you in my written testimony, in 1998 the Bureau of 
Narcotic Enforcement seized 1,006 laboratories. 161 of these 
were in the category of a super lab. The methamphetamine 
produced by these 161 labs exceeded all of the methamphetamine 
produced by the remaining 845.
    The second type of laboratory which is being encountered 
produces far less than one pound per cook. In most instances, 
these stovetop or mom-and-pop operations produce anywhere from 
2 to 4 ounces of methamphetamine. Unfortunately, these 
laboratories account for 75 percent, or in our case 755 of our 
1,006 seizures. While producing a relatively small amount, 
these laboratories are the most volatile and harbor the most 
violent individuals.
    Because they carry out their illegal activity having little 
background and/or training, not only are they unaware of the 
dangers associated with what they are doing, but if they do 
know, they simply don't care. And I would digress from my 
statement at this point to simply say that we need to keep in 
mind that many of these individuals receive their information 
on how to carry out this activity through the Internet or by 
word of mouth from other individuals. By purchasing commonly 
used household chemicals and things readily available, they are 
not breaking the law. So I commend the efforts in terms of 
advertising and any publicly acquired information on how to 
carry out this illegal activity.
    These laboratories are mostly commonly found in homes, 
trailers, motel rooms, and apartments, and are the ones most 
often involved in accidental fires and explosions and are most 
apt to have children present. With respect to the volatility, 
again as pointed out previously, these chemicals are extremely 
dangerous alone and even more volatile when used in combination 
by people who don't know what they are doing.
    In 1998, 208 of the 1,006 laboratories seized by the Bureau 
of Narcotic Enforcement had 401 children present. This 
unfortunately demonstrates the insidiousness of 
methamphetamine. Everyone who uses meth has the potential to 
become addicted, and every methamphetamine addict has the 
potential to become a methamphetamine manufacturer. These 
cookers will be added to the numbers of small producers who 
live next door to you and to me, and perhaps are operating next 
door to an elementary school. They will produce just enough to 
maintain their habit and perhaps a little more to sell to their 
friends, thereby enabling this insidious activity to continue. 
In their quest, we can only hope that they do not harm any of 
us or any other innocent bystanders.
    The violence component cannot be stated enough. Abused for 
its stimulant effects, at therapeutic and slightly higher 
dosage the drug promotes feelings of euphoria, increased self-
esteem, self-confidence, and feelings of power and importance. 
High doses--I won't go into a lot of detail here, as I see the 
red light is on, but there are three types of users, as the 
treatment community tells us--the low-intensity users, binge 
users, and high-intensity users.
    These people at the binge and high-intensity use go through 
4- to 24-hour phases of ingesting additional drugs and 
perpetually rushing, tweaking and crashing. They experience 
extreme weight loss, aggression, toxic psychosis, and other 
physical effects which can ultimately lead to stroke or heart 
attack.
    One of the other issues which is mentioned in the bill and 
which is of critical importance to those of us who work in law 
enforcement is what happens to the environment. Drug agents 
have discovered thousands of drug laboratories in locations 
causing incalculable damage to the environment and potential 
and actual damage and danger certainly to California citizens, 
or anywhere else in the country where these are encountered.
    In most clandestine drug laboratories, as Senator Feinstein 
pointed out, 6 pounds of toxic and often lethal chemical waste 
is left at the laboratory site for every pound of 
methamphetamine produced. Since these sites are covert, the 
operators attempt to hide the visible signs. Toxic residues are 
most often buried in rural areas. They are flushed down 
toilets, however, in residential areas and they go into city 
water systems and they are piped into nearby streams and lakes.
    Last year, the State of California Department of Toxic 
Substance Control spent well over $8 million just in California 
to clean up the toxic waste from clandestine drug laboratories. 
While this was once a problem localized to remote or rural 
areas, dumping of toxic waste from lab activity is now an urban 
problem as well, with so many small stovetop operations.
    One should remember, however, that these expenditures are 
only for gross contaminant removal. Site remediation, which 
most of us envision as complete toxic removal, is never 
accomplished because of the exceptional cost. What this means 
is that many businesses, dwellings, hotels, and national parks 
should not be reinhabited unless they are completely 
demolished, removed, and reconstructed. However, this rarely 
happens. Most unfortunate is the government's inability to 
recover the costs associated with these tasks because of weak 
environmental laws related to illegal drug activity.
    Just to touch a little bit on some of the emerging trends 
in speaking about the environmental impact, as was pointed out 
by Mr. Marshall and in demonstrating the clandestine lab 
activity, I won't go into examples because I believe that we 
have all heard those examples numerous times before and I can 
only express the dangerousness of having to deal in clandestine 
laboratories.
    But I think that certainly what was demonstrated here 
earlier points out the need for adequate funding and that that 
be made available for cleaning up clandestine laboratories, and 
that law enforcement be appropriately and adequately trained 
and equipped to investigate as well as seize clandestine 
laboratories.
    I think it is important to talk about one of the critical 
emerging trends, and that is the illegal production now of 
amphetamine. Amphetamine, like methamphetamine, is a potent 
synthetic stimulant sold as a powder and currently widely 
available in Southern California. Amphetamine is often 
manufactured because methamphetamine cooks cannot obtain the 
precursor chemicals necessary to manufacture meth.
    The chemical most often selected is phenylpropanolamine, or 
PPA. When used in the manufacturing process, it results in the 
production of amphetamine rather than meth. As domestic 
controls of methamphetamine precursors, particularly ephedrine 
and pseudoephedrine, tighten, it is likely that amphetamine 
production will increase. Amphetamine is marketed by illegal 
importers, distributors and others as meth or as a meth 
substitute. The drug traffickers don't make a distinction 
between the meth and the amphetamine and often substitute it 
when they can't produce the meth.
    Further, recent medical research appears to disprove the 
long-held belief that there is a significant difference in the 
effect on the central nervous system between amphetamine and 
methamphetamine. This information, along with difficulties in 
securing precursors to manufacture meth, seems to confirm that 
there is, in fact, an increase in the amount of amphetamine 
being produced. Increasingly, over the past 2 to 3 years what 
were ultimately documented to be amphetamine seizures were 
originally suspected to be methamphetamine.
    Further complicating that particular issue of the 
amphetamine and encouraging the switch from methamphetamine to 
amphetamine is the sentencing disparity between amphetamine and 
methamphetamine. Substantial gaps remain in Federal law that 
prevent an effective Federal law enforcement response to the 
serious of meth and amphetamine distribution and use.
    While penalties for meth cases have been increased 
substantially in recent years, there has been no similar change 
for amphetamine. Amphetamine distribution and use create the 
same harms as methamphetamine distribution, and penalties need 
to be increased accordingly. Strong Federal laws are needed on 
this particular issue because State prosecutions for these 
offenses are often hampered by laws which do not require 
incarceration on conviction and by inadequate forensic 
laboratory resources. Failure to enact sentencing guidelines 
for amphetamines which correspond to meth will simply encourage 
amphetamine production and serve to substitute one evil for 
another.
    In closing, let me leave you with a few thoughts. In 1998, 
BNE seized 1,006 of those 1,655 clandestine laboratories by all 
State law enforcement officials in California. During that same 
period, DEA seized 1,654 labs nationwide. I think that puts the 
nature of the problem in California in perspective nationally.
    For the first time, there was no State in which there was 
no clandestine lab activity noted by either DEA or some other 
State law enforcement entity. Incomplete statistics for the 
first 5 months of 1999 document that of the 470 clandestine 
labs seized by BNE, in 103 of those clandestine laboratories we 
found 180 children. In other words, children were present in 
nearly one quarter of all of our lab seizures so far, children 
who have not only been contaminated, but very likely abused in 
some manner.
    And we can also be sure in all of those 470 laboratories 
that they produce toxic waste requiring removal, for which we 
will not be reimbursed. Methamphetamine and/or amphetamine is 
not only readily available in every major city and country 
hamlet, but there is also a very good chance it is now being 
illegally produced there as well. In the methamphetamine 
manufacturing trade, every American citizen suffers a loss in 
public safety, the environment, public health, and the 
financial drain that drug manufacturing, distribution, and 
abuse place on all of our social and governmental systems.
    We must continue our efforts both at the State and Federal 
levels to seek appropriate ways to not only punish those who 
seek to harm our lives and freedoms, but in so doing to also 
protect the innocent from further harm. We must deepen our 
resolve and correct those things which we can, in hopes that in 
so doing we will move closer to successfully combating this 
problem which we must all face as a Nation. No one State or law 
enforcement agency can do this alone.
    Mr. Chairman and members of the committee, thank you for 
allowing me to take this time to present my information to you. 
I will be happy to answer any questions you have or to provide 
you with any other information.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. Kypridakes follows:]

                Prepared Statement of Katina Kypridakes

    Chairman Hatch and members of the committee, first, thank you for 
allowing me to bring you information that I hope is pertinent and 
helpful to the purpose of your hearing. The information I will give to 
you today, which I call the California perspective, is, because of 
California's unique, albeit dubious, position as a ``source country'' 
for methamphetamine, predictive of the ever changing face of this 
problem. It is a perspective molded from the collective state law 
enforcement consciousness that displays California as both a negative 
and positive example for the nation. Negative in so far as our state 
continues to lead the nation in clandestine laboratory seizures, in 
turn providing an ongoing source of methamphetamine trafficked across 
the country; and positive as the state has led the national fight 
against methamphetamine, while at the same time continuing to bear the 
brunt of the illegal drug's destructive effects. Before looking at the 
impact this drug has had, not only on California, but the nation as a 
whole, perhaps it will be helpful to briefly review the history of 
methamphetamine and amphetamine.
                                history
    This once obscure drug is now widely recognized across the United 
States as one of the most destructive illegal drugs ever known. Yet, 
despite its somewhat recent notoriety nationally, methamphetamine has a 
long, ugly history in California. Since California's first 
methamphetamine lab seizure in 1967, law enforcement's fears about this 
drug were confirmed by the Haight-Ashbury Free Clinic, where some of 
the pioneering work in drug abuse recognition and counseling was 
initiated. California's first methamphetamine drug laboratory was 
seized in 1967 in Santa Cruz, California. Shortly thereafter, 
methamphetamine production moved from a ``hippie'' counter-culture 
environment to one controlled predominantly by outlaw motorcycle groups 
such as the Hells Angels. The Hells Angels steadfastly maintained 
control of the manufacturing and distribution of large quantities of 
methamphetamine until the mid-1980's, when, very gradually, law 
enforcement officials in California began seeing Mexican laboratory 
operators and multiple-pound quantity distributors appear on the 
illegal drug scene. Then, gradually, over a period of five to ten 
years, several things occurred which gave the Mexican cartels growing 
dominance in the methamphetamine industry.
    First, the aggressive and violent nature of Mexican traffickers 
literally forced and out-priced the motorcycle groups out of the 
production business and almost strictly into the mid- to lower-scale 
distribution. Secondarily, cheap and sometimes coerced Mexican labor 
from across the border was imported into California to run large-scale 
commercial laboratory operations under the direction of several key 
personnel. Chemical precursors, which were once freely sold by the U.S. 
chemical industry for legitimate use in manufacturing, were also being 
sold to illicit drug manufacturers. Once the law enforcement 
authorities caught on to the illegal use of these chemicals, strict 
regulation packages were enacted by California which closely regulated 
and monitored precursor chemicals. At the same time, however, Mexico 
had no, and continues to have no, precursor chemical regulations. 
Hence, the necessary chemical precursors for the manufacture of 
methamphetamine began flowing across the Mexican border, mixed in with 
other industrial chemicals used for legitimate production of goods and 
services.
    Why, you might ask, don't Mexican entrepreneurs produce the drug in 
Mexico, where it is safer, rather than risking apprehension in the 
United States, where there are a clearer set of legal restrictions 
against such activity? Simply, because drug production and distribution 
are nothing more than a business, and just as the cartels responsible 
for the manufacture of cocaine and heroin keep their production 
facilities close to the opium poppy or coca fields, the cartels 
responsible for the manufacture of methamphetamine keep their 
production facilities, i.e., the clandestine drug laboratory, close to 
the chemical sites in rural areas where it can be produced in the 
United States close to the market. This way, only the raw materials 
(precursors), which carry a much less stringent penalty, need be 
smuggled into our country. The methamphetamine is then marketed in a 
method not requiring smuggling activity and allowing it to be 
manufactured almost literally in the backyard of the customer.
                              the problem
    Today, labs are predominantly the ephedrine/pseudoephedrine 
reduction type whose product is six times stronger than the P2P labs 
once operated by outlaw motorcycle gangs. What has evolved, over the 
past ten years is that California law enforcement officers see 
primarily two very distinct kinds of labs. The first type are 
industrial-size ``super laboratories,'' capable of producing five to 
ten times the amount of methamphetamine that had been routinely 
produced by conventional drug laboratories operated by Hells Angels or 
other outlaw motorcycle groups. From these ``super labs,'' or 
commercial laboratories, run exclusively by and for Mexican drug 
trafficking organizations, our bureau estimates that just these labs 
alone are capable of producing over two million dollars per week in 
methamphetamine. Some drug trafficking organizations go so far as to 
specialize in facilitating the production of methamphetamine by 
providing laboratory sites complete with lab apparatus. While routinely 
producing approximately 50 pounds per ``cook,'' these laboratories 
could easily produce up to 500 pounds of methamphetamine per day. These 
organizations have developed distribution of their product by using the 
already established distribution networks for heroin, cocaine, and 
marijuana. In 1998, the Bureau of Narcotic Enforcement seized 1,006 
laboratories, 161 of which were in this category of laboratories. The 
methamphetamine produced by these 161 laboratories exceeded all of the 
methamphetamine produced by the remaining 845.
    The second type of laboratories being seized are producing less 
than one pound per cook. In most instances these ``stove top'' 
laboratories only produce 2-4 ounces of methamphetamine per cook. 
Unfortunately these laboratories account for 755, or 75 percent, of the 
1,006 laboratories seized by the Bureau of Narcotic Enforcement last 
year. While producing a relatively small amount of methamphetamine, 
these laboratories are the most volatile and harbor the most violent 
people. Because the individuals carrying out the illegal activity have 
little background and/or training, not only are they unaware of the 
dangers associated with what they are doing, if they do know they 
simply don't care. These laboratories, commonly found in homes, 
trailers, motel rooms and apartments, are the ones most often involved 
in accidental fires and explosions, and are those most apt to have 
children present. In 1998, 209 of the 1,006 laboratories seized by the 
Bureau of Narcotic Enforcement had 401 children present. This, 
unfortunately, is the insidiousness of methamphetamine. Everyone who 
uses methamphetamine has the potential to become addicted, and every 
methamphetamine addict has the potential to become a methamphetamine 
manufacturer. These ``cookers'' will be added to the numbers of small 
producers who live next door to you and me, or next to a school, 
producing just enough to maintain their habit and perhaps a little more 
to sell to friends thereby enabling the illegal activity to continue. 
In their quest, one can only hope they don't harm innocent bystanders.
                         the violence component
    Methamphetamine is a purely synthetic, potent stimulant of the 
amphetamine class of drugs. Abused for its stimulant effects, at 
therapeutic or slightly higher doses, the drug promotes feelings of 
euphoria, increased self-esteem and self-confidence, and feelings of 
power and importance. High doses or chronic use have been associated 
with increased nervousness, irritability and paranoia, which in turn 
leads to hyperactive behavior and dramatic mood swings. Heavy users 
often exhibit extreme belligerence and paranoia. Withdrawal from high 
doses can produce severe depression. Treatment professionals define 
three amphetamine/methamphetamine user groups: low-intensity, 
``binge,'' and high-intensity users. The low-intensity users may take 
methamphetamine to lose weight or to stay alert and awake, while the 
second group, ``binge'' users, follow an initial rush with repeated 
dosing to maintain the original ``high of methamphetamine and 
ultimately enter a phase some clinicians call ``tweaking''--a 4 to 24 
hour phase in which a user need not, ingest any additional drug, but 
remains high and exhibits little control over his or her behavior. This 
``tweaking'' phase, which some addicts describe as nearly intolerable, 
poses the greatest risk to family, friends, the public and police 
because of the occurrence of rage, aggression, violence, paranoia, 
anxiety, hallucinations, and hyperactivity. The third group, high-
intensity users, engage in an almost perpetual cycle of rushing, 
tweaking, and crashing. These users may experience extreme weight loss, 
aggression, toxic psychosis (including paranoia and hallucinations), 
stroke, and heart attack.
    Law enforcement, paramedics, doctors and nurses are placed in 
dangerous and volatile situations every time they come in contact with 
a methamphetamine user. These professionals, who are trying to help the 
user, are transformed in the user's paranoid mind as threats. The 
result of this paranoia is a violent, defensive reaction against these 
persons trying to do their job. Most often the users exhibit the most 
violent behavior against their spouses and their children. Stories 
abound of users who have repeatedly physically abused their spouses, 
physically and sexually abused their children, mothers who allowed 
their children to starve to death, or to be burned in lab fires or 
explosions. In addition, there are the random acts of violence 
sometimes against perfect strangers. Often, if the user doesn't harm 
anyone around him, he or she winds up killing or maiming him or 
herself.
                            the environment
    Drug agents have discovered thousands of drug laboratories in 
locations causing incalculable damage to the environment and potential 
and actual damage and danger to California's citizens. In most 
clandestine drug laboratories, six pounds of toxic and often lethal 
chemical waste are left at the laboratory site for every pound of 
methamphetamine produced. Since these sites are covert, and the 
operators attempt to hide the visible signs and smells of a drug 
laboratory, the toxic residues are most often buried in rural sites; 
flushed down the toilets at residential sites to go into city water 
systems; or piped into nearby streams and lakes. Last year the State of 
California, Department of Toxic Substances Control spent well over $8 
million to clean up the toxic waste from clandestine drug laboratories. 
While this was once a problem that was localized to remote or rural 
areas, dumping of toxic waste from clandestine laboratory activity is 
now an urban problem with so many small ``stove top'' operations 
disposing their waste in the sink or down the toilet. One should 
remember that these expenditures are only for gross contaminant 
removal. Site remediation, which most of us envision as the complete 
toxic removal, is never accomplished because of the exceptional cost. 
What this means is that many businesses, dwellings, hotels, and 
national park areas should not be re-inhabited unless they are 
completely demolished, removed, and reconstructed. This rarely happens. 
More unfortunate is the government's inability to recover costs 
associated with these tasks because of weak environmental laws related 
to illegal drug activity.
    While this may not appear to directly affect our daily activity, I 
would ask you to consider the following:

  <bullet> Many laboratories are set up in motel, rooms where a 
        ``cook'' occurs overnight, and the next day the lab is gone. 
        The maid enters the room in the morning to clean, finds a mess, 
        which is usually unrecognizable to her as hazardous waste, and 
        so she vacuums the rug and uses common household chemical 
        detergents to clean. The room is now ready for rental to, 
        possibly, an unsuspecting family with children who will spend a 
        night in this now contaminated motel room. That evening or the 
        next morning, the family could awaken with watering eyes, 
        burning throat and lungs, and disorientation due to exposure to 
        the contaminants permeating the room.

  <bullet> A lab in Northern California next to a prominent 
        recreational area was discovered because of the strange and 
        rapid deaths of most of the trees along the riverbanks. Their 
        demise was traced to the seepage of exceptionally toxic 
        chemicals from a clandestine drug laboratory.

  <bullet> Another drug laboratory located in Central California 
        leached thousands of gallons of toxic chemicals into the Merced 
        River. The Merced River runs through Yosemite National Park.

  <bullet> San Francisco agents, assisting in a probation search, 
        discovered and seized a fully operational methamphetamine 
        laboratory in the middle of its production process. A search 
        warrant for the entire residence was served, and agents found 
        other chemicals and glassware consistent with clan lab 
        manufacturing. Also discovered was a bomb. The residence was 
        located one-quarter mile from a major coastal oil refinery.

Other equally alarming situations are too numerous to list in this 
testimony but are available upon request.
                            emerging trends
    Just as we have seen a number of changes over the years in drug 
trafficking, some new trends appear to be emerging in the illegal 
manufacturing of methamphetamine. One of the most troublesome of these 
is the increase in the number of amphetamine incidents, both in illegal 
production and product seizure. Amphetamine, like methamphetamine, is a 
potent synthetic stimulant which can be sold as a powder and which is 
currently widely available in Southern California. Amphetamine is often 
manufactured because methamphetamine ``cooks'' cannot obtain the 
precursor chemicals necessary to manufacture methamphetamine, and they 
therefore select other precursor chemicals. The chemical most often 
selected is phenylpropanolamine (PPA), which, when used in the 
manufacturing process, results in the production of amphetamine, rather 
than methamphetamine. As domestic controls of methamphetamine 
precursors, particularly ephedrine and pseudoephedrine, tighten, it is 
likely that amphetamine production will increase. Amphetamine is 
marketed by illegal importers, distributors, and others as 
methamphetamine or a methamphetamine substitute. Drug traffickers do 
not make a distinction between methamphetamine and amphetamine and 
often substitute amphetamine for methamphetamine without notifying the 
customer, consumer or transporter. Further, recent medical research 
appears to disprove the long-held belief that there is a significant 
difference in the effect on the central nervous system between 
amphetamine and methamphetamine. This information, along with 
difficulties in securing precursors to manufacture methamphetamine, 
seems to confirm that there is in fact an increase in the amount of 
amphetamine being produced. Increasingly over the past two to three 
years, what were ultimately documented to be amphetamine seizures were 
originally suspected to be methamphetamine. While the general trend in 
the number of seizures of amphetamine since 1996 has been downward, 
there have been a significant number of amphetamine seizures in the 
last quarter of 1998 and the first quarter of 1999. As precursor 
chemicals used to manufacture methamphetamine become more difficult to 
obtain, some manufacturers will shift over to the manufacture of 
amphetamine using phenylpropanolamine (PPA). PPA is easier to obtain, 
particularly because it appears in more commercial over-the-counter 
products than does pseudoephedrine or ephedrine.
    Further complicating this issue, and encouraging the switch from 
methamphetamine to amphetamine, is the sentencing disparity between 
amphetamine and methamphetamine. Currently, substantial gaps remain in 
federal law that prevent an effective federal law enforcement response 
to the serious problem of methamphetamine and amphetamine distribution 
and use. While penalties for methamphetamine cases have been increased 
substantially in recent years, there has been no similar change for 
amphetamine cases. Amphetamine distribution and use create much the 
same harms as methamphetamine distribution and use, and penalties need 
to be increased accordingly. Strong federal laws are needed on this 
particular issue because state prosecutions for these offenses are 
often hampered by laws which do not require incarceration on conviction 
and by inadequate forensic laboratory resources. Failure to enact 
sentencing guidelines for amphetamine which correspond to 
methamphetamine will simply serve to encourage amphetamine production 
and serve to substitute one evil for another.
    In closing, let me leave you with a few thoughts. In 1998 the 
California Bureau of Narcotic Enforcement seized 1,006 of the 1,655 
documented clandestine laboratories seized by all law enforcement 
agencies in the state. During that same period the Drug Enforcement 
Administration seized 1,654 clandestine laboratories nationwide, and 
for the first time there was no state in which there was no clandestine 
laboratory activity noted by either the Drug Enforcement Administration 
or state law enforcement. For the first five months of 1999 there have 
been 470 clandestine laboratory seizures by the Bureau of Narcotic 
Enforcement. In 103 of those labs we found 180 children. In other 
words, children have been present in nearly one-quarter of all lab 
seizures--children who have been not only contaminated, but very likely 
abused in some manner. And we can be sure all 470 laboratories in 
California produced toxic waste requiring removal for which we will not 
be reimbursed. Methamphetamine and/or amphetamine is not only readily 
available in every major city and country hamlet, but there is also a 
very good chance it is now being illegally produced there as well.
    In the methamphetamine manufacturing trade, every American citizen 
suffers a loss in public safety, the environment, public health, and 
the financial drain that drug manufacturing, distribution and abuse 
places on all of our social and governmental systems. We must continue 
our efforts, both at the state and federal level, to seek appropriate 
ways to not only punish those who seek to harm our lives and individual 
freedom, but in so doing to also protect the innocents from further 
harm. We must deepen our resolve and correct those things which we can 
and hope that in so doing we will move closer to successfully combating 
this problem which we must all face as a nation. No one state or law 
enforcement agency can do this alone.
    Mr. Chairman and Members, thank you for allowing me to take this 
time to present my information to you. I will be happy to answer any 
questions you have or provide you with any other information you deem 
appropriate. Again, thank you.

    The Chairman. Sheriff Doerge, we will turn to you now.

                    STATEMENT OF RON DOERGE

    Mr. Doerge. Thank you, Mr. Chairman and Senator Ashcroft, 
for this opportunity. I hope to bring you a view from the local 
front lines. Much of the equipment you see here we deal with 
many times. We have made 15 drug raids on methamphetamine labs 
in my county this year alone, wearing equipment just like that. 
Apparently, that one number in Missouri is from Newton County 
last year. We had a super lab in Newton County last year.
    I am the Chairman of the Southwest Missouri Drug Task 
Force, representing four counties, which is approximately 2,500 
square miles of southwest Missouri. Our members are alarmed at 
the escalation of hundreds of small, clandestine 
methamphetamine labs in remote areas of our counties. There is 
a growing trend among drug manufacturers to switch from bathtub 
crank operations in small towns and large cities to riverside 
cooks and roadside cooks. And the riverside cooks and roadside 
cooks are in remote areas and they offer concealment and dump 
sites for methamphetamine sludge and waste.
    In the first 6 months of this year alone, we have arrested 
numerous meth manufacturers who have led us to dump sites. In 
one case, in mid-May, a 17-year-old was arrested along with his 
natural parents who had taught him to cook methamphetamine. 
They were arrested at their residence in the small town of 
Seneca, MO, where they were cooking methamphetamine at the time 
of the arrest. Information was obtained that this trio had 
dumped large amounts of sludge and waste several times in Big 
Lost Creek, which is just 2 miles above the town they lived in.
    Additionally, they led investigators to sites in Grove, OK, 
at a Boy Scout camp where they had completed the cooking 
process 3 times in a 48-hour period. They left this site 
riddled with syringes, paraphernalia, sludge and waste strewn 
about the area. This group has cooked and dumped waste in many 
other locations, including Table Rock Lake, and Stockton Lake, 
both in southwest Missouri.
    As another example of danger to our children from meth 
labs, on July 3, in Newton County, we conducted a raid at a 
residence in Joplin, MO. Three individuals were arrested and 
charged with methamphetamine manufacture. By the way, we had 
arrested them the November before; they were repeat offenders, 
which most of these people are we are dealing with over and 
over again. And it was discovered the sludge and waste from 
that operation was being dumped 3 feet from the Stapleton 
Elementary School playground.
    Task Force members believe waste is being dumped in many 
sites throughout our counties everyday, and the effects on our 
environment, particularly the quality of our drinking water, 
will be catastrophic if allowed to continue. Local members and 
agencies of our Task Force are struggling to store hazardous 
materials seized in these drug labs in our enforcement areas. 
Often, chemical trucks have to travel long distances, over 100 
miles, to Joplin, and that is the large labs.
    But many times, the truck cannot respond to smaller 
operations and it is left to local agencies to attempt to store 
the chemicals seized in these operations. Often, the chemicals 
are placed in evidence lock-ups, leading to many mishaps. In 
Newton County alone, 5 officers this year have been overcome by 
fumes from evidence.
    The adverse impact of these operations is not only 
hazardous to officers, but anyone swimming or fishing in our 
streams, lakes and farm ponds--and farm ponds are being used 
more and more--or anyone drinking our water. The operations 
certainly have affects on our children, as we have pointed out.
    We realize the Drug Enforcement Administration is 
overwhelmed with calls for assistance from local agencies and 
cannot respond to all requests. Therefore, we seek help in 
expanding the resources we have available to us through the 
Drug Enforcement Administration and HIDTA and the continued 
support and expansion of drug task force grants which have been 
extremely successful in our remote areas. We, however, need 
additional undercover officers and resources to continue to 
wage a war that is primarily being fought in the rural areas of 
our State.
    In addition to these recommendations we have already made, 
our Task Force respectfully requests your help in augmenting 
the chemical response teams so that they might arrive in a 
timely manner. We also ask that you eliminate methamphetamine 
recipes, ingredients, and instructions for manufacturing on the 
Internet. By the way, I have an example of that here. This was 
taken off the Internet at one of our local libraries by a 16-
year-old, in his own handwriting, in living color, if you would 
like to see that.
    We hope to increase the penalty for drug manufacturing, and 
also in some cases the sale of certain chemicals. We also 
request the opportunity for stronger prosecution--we are 
dealing, as I said, with those repeat offenders over and over 
again--and reduced suspended sentences because so many of these 
are pled down over and over again and we keep seeing the same 
people, increased jail time for repeat offenders, and create 
new harsh laws dealing with methamphetamine manufacturers who 
are poisoning our environment.
    In closing, the problem will not be controlled until it 
becomes so dangerous and so costly to manufacture and sell 
drugs that only the most desperate will attempt it. This is the 
view of our Task Force. Nothing deters crime like the certainty 
of punishment. And I have submitted, as I said, several 
examples of how this can be taken off the Internet, and in that 
one case in particular we were very concerned that they went to 
our local library. And this wouldn't print out, but he had the 
time to take this down. And as you can see, there are stains on 
this material and that was because it was used many times in 
the manufacture of methamphetamine by that 16-year-old boy.
    Thank you.
    The Chairman. Well, thank you, Sheriff.
    [The information of Mr. Doerge follows:]

               Newton County Sheriff's Department and Jail,
                                         Neosho, MO, July 26, 1999.
The Honorable Orrin G. Hatch,
Chairman, Senate Judiciary Committee, Washington, DC.
    Dear Chairman Hatch and Committee Members: As Chairman of the 
Southwest Missouri Drug Task Force representing four counties, and the 
cities and towns therein, comprising approximately 2500 square miles of 
Southwest Missouri, our members are alarmed at the escalation of 
hundreds of small, clandestine methamphetamine labs in remote areas of 
our counties. There is a growing trend among drug manufacturers to 
switch the ``bathtub crank'' operations in small towns to the 
``riverside cooks''. These roadside and riverside ``cooks'' are in 
remote areas as they offer concealment and dump sites for 
methamphetamine sludge and waste.
    In the first six months of this year alone, we have arrested 
numerous meth manufacturers who have led us to ``dump'' sites. In one 
case in mid-May, a 17 year old was arrested along with his natural 
parents who had taught him how to cook methamphetamine. They were 
arrested at their residence in the small town of Seneca MO., where they 
were cooking methamphetamine at the time of the arrest. Information was 
obtained that this trio had dumped a large amount of sludge and waste 
several times in Big Lost Creek, two miles above the town they were 
living in. Additionally, they had led investigators to a site in Grove, 
OK at a Boy Scout camp where they had completed the cooking process 
three times in a 48 hour period. They left this site riddled with 
syringes, paraphernalia, sludge and drug waste strewn about the area. 
This group had cooked and dumped waste in many other locations 
including Table Rock Lake and Stockton Lake, both in Southwest 
Missouri.
    As another example of danger to children from meth labs, on July 3 
in Newton County, we conducted a raid at a residence in the City of 
Joplin, MO. Three individuals were arrested and charged with 
Manufacturing of Methamphetamine, and it was discovered sludge and 
waste from their methamphetamine operation was being dumped 3 feet from 
Stapleton Elementary School.
    Task Force members believe waste is being dumped in many sites 
throughout our counties every day, and the effects on our environment, 
particularly the quality of our drinking water, will be catastrophic if 
it is allowed to continue. Local members and agencies of our task force 
are struggling to store the hazardous materials seized at these drug 
labs in our enforcement areas. Often chemical trucks have to travel 
from Tulsa, Oklahoma to Joplin, MO, over a hundred miles, to respond to 
large operations and it is left to local agencies to attempt to store 
many of the chemicals seized in these operations. Often these chemicals 
are placed in Evidence lock-ups, leading to many mishaps. In Newton 
County alone, five officers this year have been overcome by fumes from 
this evidence.
    The adverse impacts of these operations is not only a hazard to 
officers, but anyone swimming/ fishing in our streams, lakes and farm 
ponds or anyone drinking the water. These operations certainly have 
adverse effects on our children at risk on playgrounds and at campsites 
as our investigations have revealed.
    We realize the Drug Enforcement Administration is overwhelmed with 
the calls for assistance from local agencies and cannot respond to all 
requests. Therefore, we seek your help in expanding the resources we 
have available to us through the Drug Enforcement Administration and 
HIDA and the continued support and expansion of drug task force grants 
which have been extremely successful in our remote areas. We, however, 
need additional undercover officers and resources to continue to wage 
war that is primarily being fought in the rural areas of our state.
    In addition to the recommendations already made, our Task Force 
respectfully requests your help to augment the ``chemical response 
teams'' who can arrive in a timely manner to assist law enforcement at 
chemical sites throughout the state. We also ask that you eliminate 
methamphetamine recipes, ingredients and instructions from 
manufacturers on the Internet, increase the penalty for drug 
manufacture/sales and those who sell the chemicals, pursue stronger 
prosecution, reduce suspended impositions of sentences, increase jail 
time for repeat offenders and create new, harsher laws dealing with 
methamphetamine manufacturers who poison our environment.
    In closing, the problem will not be controlled until it becomes so 
dangerous and costly to manufacture and sell drugs that only the most 
desperate will attempt it. Nothing deters crime like the certainty of 
punishment. Attached are several examples of recipes, instructions and 
ingredients which can be accessed at our local library through the 
Internet. This information is easily accessible to children in our 
area.
    Thank you for your consideration.
            Respectfully,
                                        Sheriff Ron Doerge,
       Chairman, Southwest Missouri Drug Task Force, Newton County.

    The Chairman. Mr. Vasica, we will take your testimony.

                    STATEMENT OF JOHN VASICA

    Mr. Vasica. Mr. Chairman, members of the committee, I 
appreciate the opportunity to be here and be a part of this 
process and concentrating on a problem of this magnitude. I am 
honored to be invited here and being able to give you a 
parent's point of view.
    I wish that this hearing would not be necessary, but 
current circumstances dictate otherwise. As a single parent, I 
have been involved with the raising of a son who is now 19 
years old. Unfortunately, he chose to dabble in something I 
disapproved of, but could not control or prevent. This drug 
took over his lifestyle to a point where nothing else mattered. 
Neither school nor family were of any importance. His grades 
went from A's and B's to F's, but after much pushing, he 
finally did graduate.
    During his half-hearted attempts at finding employment 
after graduation, motivation and ethics were nonexistent. 
Brushes with the law failed to deter him and his peers from 
using this drug. Finally, after pushing it to the limit, he was 
ordered by the court system to check into a rehab center. The 
other option was jail. He chose the chance to get his life 
together and has completed a program. I now have my son back.
    But not for a minute am I kidding myself into believing 
that all is well. This drug is as addictive as anything else 
out there, and relapses are a fact of life. The physical damage 
is sometimes irreparable, and I hope that I am not in that 
situation where I come across this. These longtime consequences 
can be devastating to a user. Much is unknown because it is a 
relatively new drug.
    In my opinion, in this case prevention is as important as 
the cure. Emphasis must be put on the complete eradication on 
the sources, namely the manufacturers of the drugs and the 
suppliers of the ingredients that go into producing it. As 
rampant as it is now, every means must be taken to stem the 
flow from the makers to the users. The toxic substances that 
are mixed together to manufacture it are all potential hazards 
to the environment, which makes the ingestion into the human 
body even more potent and scary.
    Everybody within the close proximity of a user is affected 
by it. This drug knows no boundaries and won't stop at 
anything. I have been told that the first time the user tries 
this drug, he gets hooked immediately. The world seems to 
suddenly change on them. Pressures disappear and the euphoria 
sets in. From that point on, life consists of worrying only 
about where the next high is coming from. This leads to other 
innovative methods to keep the cash flowing which is used to 
buy more drugs. A whirlpool is created from which escape seems 
impossible.
    Watching from the outside is absolute torture, but parental 
involvement is futile and frustrating. Love and logic are words 
that have no meaning, and finally the time arrives when we 
attempt to throw our hands up in the air and just let our kids 
continue doing what they are doing and hope things work out--a 
chance with terrible odds.
    I am imploring all of the members of this committee to pass 
this bill and eliminate this dreadful scourge from our 
neighborhoods. When this drug is easier to get than a Pepsi, we 
know that immediate and stricter law enforcement is vital to 
achieve this goal.
    Again, I wish to thank everyone who played a part in 
enabling me to be present here today, and I applaud this 
committee for recognizing the urgency of this massive problem 
and the actions it is taking to make the eradication of this 
killer drug a reality.
    Thank you.
    The Chairman. Well, thank you, John, for sharing your 
family tragedy with us and I hope that everything does work 
out. But it is addictive and it can grab them again, no 
question about it. It is my hope that your testimony can 
somehow help other families that are going through the same 
ordeal.
    Your testimony demonstrates that the methamphetamine 
problem can strike any family.
    Mr. Vasica. Absolutely, absolutely.
    The Chairman. How do you think law enforcement can help to 
prevent children from falling prey to methamphetamine or 
amphetamine?
    Mr. Vasica. I think if we cut the source right at the 
start.
    The Chairman. Cut the source. Well, as someone who 
witnessed firsthand the signs of methamphetamine use and 
addiction, can you describe the signs or the symptoms that 
might alert other families so that they can maybe catch this 
early enough?
    Mr. Vasica. There are many, many signs, and I am sure 
everybody on this panel is aware of them. The lack of 
motivation, the lack of enthusiasm. They don't want to do 
anything. They want to get high and go to sleep, want to get 
high, go to sleep, don't eat. I mean, it is a disruptive way of 
life. There is absolutely no--what is the word--they don't want 
to do anything else except get high. That is their number one 
concern. They will do anything--steal, borrow, beg, whatever it 
takes to get that drug.
    The Chairman. Mr. Marshall, as you know, I was the original 
author of the Methamphetamine Control Act of 1996, which was 
our first legislative effort specifically directed at 
controlling the proliferation of methamphetamine. Now, one of 
the purposes of this hearing, of course, is to continue those 
efforts and make improvements in the law where those 
improvements are needed.
    I understand that aside from the reporting requirements 
mandated in the MCA, the Methamphetamine Control Act, the DEA 
and industry have been working together to fight the 
methamphetamine problem, right?
    Mr. Marshall. Yes, that is correct.
    The Chairman. Now, can you explain how the DEA has been 
working with merchants and retailers to minimize the chances 
that the over-the-counter products and other substances will be 
purchased and used in the manufacturing of meth or amphetamine?
    Mr. Marshall. Yes, sir. We have been doing a number of 
things and it hasn't been confined just to the over-the-
counter. We have been doing a lot of bulk shipments, too.
    The Chairman. Specifically, one of the things I would like 
you to go into is what voluntary measures adopted by industry 
have proven most helpful to law enforcement in this area.
    Mr. Marshall. I think that now that we are seeing the shift 
from bulk chemicals to the over-the-counter in most places, I 
think that we have seen the most results from our voluntary 
partnerships with companies like Wal-Mart and Costco, 
particularly in the State of Missouri and that general Midwest 
area.
    What we have found there is that we have entered into that 
partnership and we have tried to educate the retailers, the 
pharmacists, and those kinds of people in spotting the people 
that are coming in for purchasing the remedies for 
methamphetamine use other than the legitimate uses. And they 
have begun reporting suspicious people coming in. They have 
begun reporting larger quantities than a person would normally 
purchase, and we have been able to use that and turn that into 
investigations and intelligence gathering, and actually have 
gotten a number of leads into actual laboratories.
    But I think perhaps what has been more effective about that 
particular approach is it simply made the chemicals harder to 
get for a lot of those traffickers. I think that is a big part 
of the reason that we are seeing the purities go down. I think 
that is a big part of the reason that we are seeing the shift 
from amphetamine to methamphetamine. We have also done a lot of 
education with the agricultural people that Senator Kyl, I 
believe it was, referred to, and we have just tried to build an 
awareness with industry and other groups that can help us and I 
think it is paying off.
    The Chairman. Well, methamphetamine is said to be the drug 
of choice in the Midwest, but it is also affecting a lot of 
other States, including my own home State of Utah. Within the 
last 5 years, the use of methamphetamine has increased in some 
communities by as much as 300 percent and accounts for up to 90 
percent of the drug cases in many areas.
    Can you explain why methamphetamine use is so prevalent in 
some areas compared to others, and do you think stronger 
penalties for manufacturing methamphetamine can assist in 
preventing it from spreading to other areas of the country?
    Mr. Marshall. Let me try the first part of that question 
first, why is it hitting some areas harder than others. Well, I 
believe that the reason for that is quite simply that a number 
of years ago we saw the Mexican-based organizations wrestle the 
production control from the biker gangs. When it was in the 
control of the biker gangs, that was a kind of a niche market 
and they didn't provide that drug to a lot of people outside 
their own circles.
    Now, what the Mexican trafficking organizations did and 
what contributed to this explosion is that they used their 
well-established trafficking distribution networks in this 
country. They have been using those networks for marijuana and 
heroin for many, many years, and they used those networks to 
really aggressively market methamphetamine. They saw that there 
was a market for it and they saw that by producing this 
methamphetamine, they didn't have the logistical problems that 
they did with cocaine, heroin and marijuana.
    They didn't have to wait for a biological product to be 
harvested. They didn't have the long supply lines and the 
smuggling considerations, and they didn't have to pay large 
amounts of labor and aircraft or boat costs to smuggle this 
product in. And so what they did, in my best professional 
judgment, is they saw this market and they went about 
aggressively developing that market. So, that is why you see 
the explosion, I think, in the use. They expanded it to new and 
different user markets.
    And the other half of your question, Senator?
    The Chairman. Well, the other half was just how basically 
do you stop--well, I basically forgot what I was----
    Mr. Marshall. Yes, I think I can----
    The Chairman. Well, I think it was do you think that 
stronger penalties will help to curtail this from spreading to 
other areas?
    Mr. Marshall. Yes, yes, I do. In fact, I know that there 
have been some stronger penalties in place as a result of a 
recent bill, and I believe there is a 10-year mandatory now 
for, I believe it is 100 grams or more. I very definitely feel 
that the stronger penalties will have a deterrent effect on the 
manufacturers.
    Now, unfortunately, as the other witness has said, that is 
not going to have an effect, I think, on the users because once 
they begin this destructive cycle, there are probably not too 
many things that are going to deter them. But, absolutely, 
penalties are an essential part of solving this problem.
    The Chairman. My time is up, but let me ask you, Mr. 
Warner, about mandatory minimum sentences for drug offenses. 
Stewart Taylor, who is highly respected by me and others, a 
legal commentator, recently wrote a column in the National 
Journal advocating the repeal of all Federal mandatory minimum 
sentences for drug offenses. In addition, there is a bill 
pending in the House of Representatives which is sponsored by 
25 Members that would repeal all Federal mandatory minimum 
sentences for drug offenses.
    Now, do you support mandatory minimum sentences for 
methamphetamine trafficking? And let me just ask this: How do 
you respond to such critics of mandatory minimum sentences for 
drug offenses?
    Mr. Warner. Mr. Chairman, I believe that my position on 
minimum mandatories runs very parallel with that of the 
Department of Justice. I believe that minimum mandatory 
sentences are appropriate in the most egregious violent crimes 
and drug trafficking areas. Unfortunately, those who would 
advocate the repeal of minimum mandatories usually use the 
argument that, well, there are violent people, there are 
murderers who are serving less time than those who have 
merely--and I use that in quotes--``merely'' been trafficking 
in or manufacturing drugs.
    But as was noted earlier, guns and violence are part and 
parcel of the drug trade. And quite frankly, my experience over 
many years as a prosecutor suggests that there are appropriate 
circumstances. Now, I don't think that we want to be knee-jerk 
about this, and I know this committee hasn't been that way, but 
I do believe that in the appropriate cases, the most serious 
cases, minimum mandatories are appropriate and they do serve a 
useful purpose of deterrence.
    I might also add that as you look at this particular 
problem of methamphetamine, which is different than other drug 
areas because of the manufacturing aspect vis-a-vis some of the 
things we have seen with heroin, cocaine, and so on, I believe 
personally that there is a qualitative difference between those 
who manufacture and those who distribute and those who use. Mr. 
Marshall alluded to that just a bit.
    Those who are manufacturing pose a very, very serious 
threat to the public safety and to the environment. Many of 
these things have been alluded to before. I won't rehash that, 
but I do believe that in appropriate circumstances and in the 
most serious cases minimum mandatories are indeed appropriate.
    The Chairman. You and I have worked on a couple of 
situations where basically good kids have gotten hooked on meth 
and, you know, they get convicted, go to jail, and then they 
come out and they are absolutely convinced that they can make 
it and then slip right back into the same pattern. It is one 
thing to do everything we can to prevent it, but how do we help 
these kids that get hooked on it who want to get off but really 
can't because they are addicted to it? How long does it take to 
get over an addiction, assuming we have the right prevention 
approach?
    Mr. Warner. I don't profess expertise in that. I tell 
people I am a prosecutor, I am not a social worker or a 
physician.
    The Chairman. Yes, but you have had experience in this 
area.
    Mr. Warner. I have had experience, and my experience 
particularly with methamphetamine is that it is as addictive or 
more addictive than any other drug I have ever dealt with. And 
once people get on it, it is extremely difficult to get off. I 
am talking in the area of 2 to 3 years, at least, of very 
serious kinds of rehab that I have seen.
    In fact, you know, people look at these tough sentences 
that we give people that are involved in drugs, but I have 
personally had occasions where people have come to me or have 
written to me from prison or after they have been released and 
have thanked us for prosecuting them and thanked us for putting 
them in prison because we saved their lives because they were 
on such a downhill spiral.
    And in the Federal system at least, there are very good 
programs for rehabilitation and treatment within the system. 
Many times, our State systems aren't as good, but I believe 
that the treatment aspect is absolutely essential. It is not 
enough just to incarcerate and throw away the key. If someone 
is addicted, they really do need that treatment while in 
prison.
    The Chairman. Well, I think the point I am making here, for 
everybody who is watching or listening to this, is that you 
have really got to watch your kids, and you have got to watch 
your area and we have all got to be vigilant because once the 
kid is addicted--and it could be the nicest young person in the 
world, as the one young person that we dealt with. It could be 
a terrific young person, but once he or she is addicted, it is 
almost impossible to get him or her off of addiction, and it 
takes up to 3 years of very intensive rehabilitation. This is 
becoming a widespread problem in our society. And as Mr. Vasica 
brought out, even if one goes through the 3-year 
rehabilitation, he or she may slip back into it because the 
drug is so addictive and so compelling. I just wanted to get 
that across because this is not some itty-bitty problem; this 
is a big-time problem.
    Mr. Vasica, you wanted to say something?
    Mr. Vasica. I have heard from the counselors in the rehab 
center that my son was in that they never, ever get over the 
addiction. It will always be in the back of their minds. Even 
now I ask my son, do you ever think about it. He says, all the 
time. But they teach them how to prevent from going back into 
it. So, that addiction never, ever disappears. It is scary, it 
really is scary.
    The Chairman. It is an evil thing, I tell you.
    Well, my time is up. Let me turn to Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Vasica, I am delighted that you have your son back. I 
think that is really the good news of this hearing.
    Mr. Vasica. Thank you.
    Senator Feinstein. If I might, I would like to begin my 
questioning with Mr. Marshall. Just quickly, Mr. Marshall, who 
would you say of the Mexican cartel leaders are the two 
gentlemen that have had the biggest impact on the 
methamphetamine cartel of Mexico which has begun this whole 
super lab manufacturing process?
    Mr. Marshall. That would be the Amezcua brothers, Luis and 
Jesus.
    Senator Feinstein. And were not the Amezcua brothers 
actually arrested and in custody at one point?
    Mr. Marshall. Yes, they were.
    Senator Feinstein. And were they not freed by a Mexican 
judge?
    Mr. Marshall. That is my understanding, yes, ma'am, that 
they were freed.
    Senator Feinstein. And do we not have an extradition 
request pending against them?
    Mr. Marshall. Yes, we do.
    Senator Feinstein. And did not the Mexican authorities know 
that the extradition request was pending against them when they 
were in jail?
    Mr. Marshall. It is my belief that they did, but to be a 
hundred percent sure about that you would have to ask the 
Justice Department. I think I can say with certainty that they 
did.
    Senator Feinstein. But they were not extradited?
    Mr. Marshall. That is correct.
    Senator Feinstein. And are not the Amezcua brothers 
responsible for the establishment in the mainstream the 
development of the major methamphetamine market in the United 
States?
    Mr. Marshall. Yes, that is correct, they are. They, in a 
sense, were the organization that started it all.
    Senator Feinstein. Let me just make a comment, if I might, 
to you, Mr. Chairman.
    The Chairman. Yes.
    Senator Feinstein. This is a huge, huge problem, and that 
is this particular Mexican cartel which has really developed 
the methamphetamine trade as we know it in the world today, and 
the two leaders were actually in prison. There was an 
extradition request. I believe it was communicated to the 
Mexican Government. As a matter of fact, they were actually 
held in jail only pending resolution of the extradition request 
and they were cut loose. I find this is just devastating in 
terms of being able to maintain an effective battle against 
methamphetamine.
    The Chairman. Well, I think that is an important point.
    If the Senator would just yield for a minute, I have to 
step out for a minute, so as soon as you are completed, we will 
turn to Senator Biden. Is that OK?
    Senator Feinstein. That is excellent.
    The Chairman. All right.
    Senator Feinstein. Ms. Kypridakes, I want to thank you so 
much for all your help. You have become, I think, one of the 
United States' great experts on precursor chemicals and 
methamphetamine, and I just want to salute the Department of 
Narcotic Enforcement. You have made many, many arrests, over 
1,000 this past year in California alone--I should say seized 
labs and destroyed labs, and I think that is very impressive.
    You state in your testimony that the Mexican drug cartels 
have the incentive to smuggle precursor chemicals into the 
United States and cook the meth here because penalties are 
lower for smuggling precursors than for smuggling meth. I note 
that under current Federal law, the maximum sentence for 
importing any quantity of listed chemicals with the intent to 
manufacture a controlled substance is 10 years. By contrast, 
the penalty for smuggling 50 grams of meth is a minimum of 10 
years and a maximum of life.
    It seems to me that we can alter the incentives and reduce 
the hazard to human health from cooking meth in the United 
States by bringing these penalties into line with each other. 
What do you think of this and what do the other witnesses think 
of this? In essence, what I am suggesting is that the penalty 
for smuggling the precursor in, be the same as manufacturing 
meth.
    Ms. Kypridakes. Well, I certainly think that that would be 
a significant step to the source of those precursor chemicals. 
In many cases, the source is coming from outside the country 
into this country. And as I stated and as you reiterated, that 
is simply because there is a lesser penalty if you do that. If 
that were brought and aligned with manufacturing, so that if 
you were bringing in those large quantities which are necessary 
for what we have coined those super labs, you would certainly 
be making a huge dent, I think.
    Senator Feinstein. For example, amphetamine, which is going 
to be more and more used if there is a clamp-down on other 
precursors?
    Ms. Kypridakes. That is correct. So there are limits on the 
amount of ephedrine and pseudoephedrine which people can obtain 
in this country, so they are seeking phenylpropanolamine 
through a variety of means. Certainly, it is a lot nicer when 
you are an illegal manufacturer if you have bulk quantities of 
phenylpropanolamine. But, again, that is being smuggled as 
well. And, again, if you are caught with that, the penalty is 
far less than what you would be charged with had you had a 
finished product.
    Senator Feinstein. Mr. Marshall, might I ask you that same 
question?
    Mr. Marshall. Senator, yes, I would support that and I 
think that that is a good idea. I think as we see a bit more 
control over the bulk shipments, however, and over the bulk 
smuggling, I think that the same concept perhaps could apply to 
some of these substances up here, the pills and that sort of 
stuff, the ephedrine and pseudoephedrine, when it is possessed 
for the purpose of manufacturing methamphetamine and when it is 
purchased by subterfuge for that purpose. I think it is an 
outstanding concept and I would suggest you might want to 
extend it to these for the same reason.
    Senator Feinstein. Would you mind taking a look at the 1996 
law? We had a huge debate, if you will recall, on the 
pseudoephedrine as to the amount that could be sold without the 
druggist having to register the sale. Do you think that that 
cap is adequate?
    Mr. Marshall. I think that is adequate because you want to 
have a balance of controlling the substance and yet have a 
safeguard in there for the legitimate uses. So I think that is 
adequate. I think that what we have done, however, is we have 
had these partnerships with retailers like Wal-Mart and Costco, 
and I think they have found that as a suspicious order, as it 
were, they kind of look at lower thresholds and they report 
lower thresholds, I am told. But I believe to safeguard the 
balance of the legitimate need with the criminal control, I 
think that those amounts are adequate.
    Senator Feinstein. Would it make any sense to put some 
limits on the amount of amphetamine that you could sell?
    Mr. Marshall. No; the amphetamine would be--I mean, that is 
an illicit substance.
    Senator Feinstein. Oh, you can't, that is right.
    Mr. Marshall. Amphetamine, methamphetamine, those are 
illegal Schedule I substances. Are you speaking of ephedrine 
and pseudoephedrine?
    Senator Feinstein. Well, then, where is it all coming from?
    Mr. Marshall. Well, right now it is all--I say ``all''--the 
trend right now for the ephedrine and pseudoephedrine are these 
over-the-counter medications. That is where a lot of it is 
coming from.
    Senator Feinstein. I am confused. You are saying it is all 
coming--the cooking ingredients are coming essentially from the 
over-the-counter ingredients?
    Mr. Marshall. We are seeing a trend now--and I think this 
is as a result of the Methamphetamine Control Act of 1996 and 
operations like Operation Backtrack and investigations where we 
have seized large amounts of bulk chemicals. I think we are 
seeing the trend now that the traffickers are getting most of 
their ephedrine and pseudoephedrine from the over-the-counter 
remedies. That is what we are seeing nationwide. Ms. Kypridakes 
may comment on that from a California point of view.
    Ms. Kypridakes. If I could just comment in this way, 
because you asked the question about lowering that threshold 
amount or what we placed in the MCA, and I believe that was one 
of the major discussions we had one day in your office. One of 
the things that I would simply point out--and I think that 
Missouri can certainly bear this out, as well as some of the 
problems that have been encountered in Utah and Iowa--a 24-gram 
threshold is a significant amount of over-the-counter cold and 
allergy preparations, certainly far more than the average 
consumer is going to consume probably in a number of years, let 
alone 1 year. And it is well above what any stovetop cooker 
would require in order to manufacture in their homes.
    Now, one of the things, and I will throw this out there, is 
there is currently legislation in California which would lower 
that threshold to 9 grams, which would mean three packages of 
96 tablets, if you will, 12 grams being what the average 
stovetop acquiring, so 4 packages of 3 grams apiece.
    Senator Feinstein. So in other words, you would lower that 
threshold from 24 grams, which is in the 1996 legislation, to 9 
grams?
    Ms. Kypridakes. That is about a done deal in California.
    Senator Feinstein. And that is three packages of how many 
pills?
    Ms. Kypridakes. Ninety-six, I believe.
    Senator Feinstein. Ninety-six. That is a lot of pills to 
buy at one time.
    Ms. Kypridakes. Sure. I know that Missouri has enacted 
certain restrictions on the amount of over-the-counter cold and 
allergy products that you can purchase, as well as some other 
States. And one of the key elements that we also included in 
some of the individual State legislation has been that blister 
packaging was no longer exempt, which was one of the things 
which was exempt in the Federal legislation.
    And I certainly commend the voluntary compliance which has 
taken place on the part of--I don't mean to--just so everybody 
understands, there certainly are reasons for establishing 
higher thresholds at the Federal level, and I want to commend 
those companies which cooperated and wanted to cooperate in a 
partnership with law enforcement, such as Wal-Mart and Costco 
and some others across the country. But, again, I think we need 
to look at the volume that we are allowing and just what it 
takes for the average stovetop cooker to cook because those are 
the majority of the labs and which pose the greatest threat to 
all of us.
    Senator Feinstein. Just one quick question because my time 
is expired. When you seize a lab, do you find a lot of evidence 
of the blister packs?
    Ms. Kypridakes. Thousands and thousands of the little 
packages.
    Senator Feinstein. So the blister packs--they are getting 
somebody to open each little pill before they cook it.
    Ms. Kypridakes. Yes.
    Senator Feinstein. And the blister packs have become a 
major problem, would you say, Mr. Marshall?
    Mr. Marshall. Yes, ma'am.
    Mr. Warner. Senator, if I could just inject very briefly in 
response?
    Senator Feinstein. Certainly, Mr. Warner.
    Mr. Warner. In Utah, I think one of the major reasons that 
Utah has become unfortunately a high manufacturing State was 
because of the easy access to precursor chemicals. Our State 
legislature acted in 1998 to pass a State Precursor Act which 
has helped us, and it limits possession and sale to 12 grams 
under our State law. I am being told by our agents that this is 
helping a great deal as they deal with this problem.
    Senator Feinstein. Would you support going to 9 grams, 
which is three 96-pill packs?
    Mr. Warner. I don't know that I have got a specific number 
in mind, but I do know that I can say based on anecdotal 
experience that the law in Utah is helping us with the lab 
problem.
    Senator Feinstein. Thanks very much. Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Biden, we will finish with you.
    Senator Biden. Let me ask for people watching this hearing, 
we talk about 3 packs, 96 pills, 12 grams, 24 grams, 9 grams. I 
think to the averaged informed person it doesn't mean much. 
Give me, any one of you, an example of someone who legitimately 
wishes to purchase these pills for purposes of dealing with 
allergies or whatever their legitimate purpose is. They walk 
into a drugstore. How many pills are they likely to buy? What 
would be a normal purchase.
    Is Sudafed on there? I guess a pack is there. When you go 
in to buy a pack of Sudafed, I mean we must have some numbers 
on what the average purchase would be for someone who is not 
going to cook it, somebody who is going to use it in a 
legitimate fashion.
    Mr. Marshall. Senator, for myself and my family--and there 
are three members of my five-member family that are kind of 
plagued with allergies, unfortunately, myself being one of 
them, and we normally buy one packet at a time, 30 or 60. And 
occasionally, if we are going on a trip, we may buy a couple. 
And the dosage unit, I believe, on those--I would have to 
actually check the package, but I believe it is----
    Senator Biden. Let me ask the staff to go down and grab a 
package of this Sudafed for me, or whatever else is there, 
please.
    Ms. Kypridakes. Under the FDA provisions, the 
pseudoephedrine can be up to 60 milligrams and the ephedrine is 
restricted to 30 milligrams per dosage unit.
    Senator Biden. I understand that. What I am trying to get 
at is to put this in language that the mother or father who is 
out there or the individual who is out there trying to 
understand what we are talking about because it is a concept 
that is hard for people to imagine.
    I mean, were my wife not a teacher and were I not in this 
business and I were practicing law and she worked for the 
DuPont Company and we heard this on television replayed, it is 
all kind of surreal to the average mother or father out there 
that says, now, wait a minute now, they are talking about 
cooking stuff that is Sudafed and night-time liquid caps, and 
they are talking about 12 and 9 and 24 grams, and they can get 
this over the Internet. I mean, this is like voodoo.
    We deal with this so much. I have been dealing with this 
for so many years of my life. We talk to each other and we 
think people understand what the heck we are talking about. So 
what I am trying to get at here is when people think that we 
are being--the Senator from California or Delaware or Utah is 
being unreasonable in restricting access to something, the way 
the drug companies or others will portray it is we don't want 
somebody to be able to walk in and buy a package of Sudafed.
    Now, in this package of Sudafed, how much of the bad stuff 
is there that allows somebody to cook this, in layman's terms? 
Can they make anything out of this pack? Can they do anything 
with this pack?
    Mr. Doerge. Well, it takes several of those packs, Senator, 
to effect a good cook. The problem with what we are saying here 
is if we limit the amount of boxes that you can buy at any one 
place, they just go from place to place.
    Senator Biden. Right. That is the next thing I was getting 
at.
    Mr. Doerge. Correct.
    Senator Biden. So the next point is we are trying to come 
up with solutions. One of the things that the American people, 
I think--at least in my experience, they look at us and they 
sometimes doubt our intentions. In this area, they don't doubt 
our intentions but doubt our judgment. So we come up and say we 
are going to limit the ability to buy the equivalent of two or 
three packs of Sudafed.
    And it doesn't take a rocket scientist to say, OK, you 
limit it and you can't buy more than four packs from one 
drugstore. But you walk next door, you go to another drugstore. 
You go to 4 different drugstores and it takes you 5 minutes to 
buy 4, 5, 6, 7, 8 packs.
    But I am trying to get at is this question. For each one of 
you, including you, sir, who has gone through more trauma 
related to this than anybody has, if there was only one thing 
you could do--if you were sitting up here or you were the 
President of the United States and could have an edict that 
would attempt--one thing you could do to affect the consumption 
of methamphetamine, of, you know, black beauties and dexies, 
the way you hear kids talk about them--you never hear anybody 
on the street say ``methamphetamine.'' You hear them talking 
about crank or dexies or beans or black beauties or white 
beanies. I mean, you know, that is the language of the street.
    Now, what would you do? You only get one, you get one deal, 
you get one thing. You are going to pass legislation. What is 
the single most important thing, if you are willing to take a 
shot at it, that you would want done other than the United 
States having an epiphany or a great alter call and all of a 
sudden see the Lord and not want to do anything? I mean, short 
of that, what one thing would you do, Donnie?
    Mr. Marshall. It is almost an impossible question to say 
one particular thing, and I don't think one particular thing 
would really impact on the problem. But I think as a law 
enforcement professional, perhaps I am biased, but I believe 
that stiffer penalties and more law enforcement measures 
against the manufacturers and the traffickers would be the 
biggest thing.
    Senator Biden. Paul?
    Mr. Warner. I agree with Mr. Marshall relative to the 
manufacturer. As I said earlier, I believe there is a 
qualitative difference in this particular drug between 
manufacturing and trafficking and the users. I think we want to 
focus--we, talking about prosecutors, law enforcement--we want 
to focus on the manufacturers where we can because that is 
where the production is, that is where this stuff is coming 
from. When we can do something about the manufacturer and focus 
on the manufacturer, then we stop the production at the front 
end.
    Senator Biden. Again, for the people watching this, the 
manufacturer can be a 22-year-old kid who is in his basement 
and has a lab like this, or a 16-year-old kid. Or the 
manufacturer can be the object of the Senator from California's 
affection and attention, Mexican drug cartel leaders. They are 
vastly different.
    We busted, State and local, about 5,000 labs last year, if 
I am not mistaken, all told. So when people think manufacturer, 
they are used to thinking of cocaine cartels. They are used to 
thinking of heroin cartels, if you pick 2, 3, 4 or 5. What we 
are talking about here is folks with old Volkswagen vans with 
stacks coming out of the top manufacturing on the road--that is 
how it got into your State, that is how it got to your State; 
it didn't come any other way--or going out near Coeur d'Alene, 
ID, and going deep in the woods polluting the ground, because 
this stuff stinks, too. You know, people smell it.
    So my point is that I think we have got to try to figure 
out how to educate the public about this in the sense that a 
manufacturer is not like--no one is going to take a coca leaf 
at 16-years-old and go down in their basement and buy the coca 
leaf and have a cocaine operation in the basement of their 
house.
    Senator Feinstein. They make crack in the kitchen.
    Senator Biden. That is my point. That is the point. The 
Senator is not listening to me.
    Senator Feinstein. I am not agreeing with you.
    Senator Biden. Well, if you listened to me, you would agree 
with me. [Laughter.]
    Let me explain what I mean by that.
    The Chairman. Could we have a little less controversy among 
our Democrats? [Laughter.]
    Senator Biden. We have a very different deal here. This can 
be made anywhere. Anything from crank to black beauties can be 
made in the basement. The average person doesn't cook cocaine 
the way in which we think of the distribution of cocaine. Even 
crack cocaine is harder to do than this. That is the only point 
I am making. And because of that, this is a more pernicious 
problem.
    And the Senator from California is right because she is the 
first one that has been on dealing harshly with precursors, to 
the point that a lot of the business interests in this country 
weren't happy because she was dealing so harshly with it.
    What I am trying to get at is it seems to me that one of 
the keys to this, when you say you want to go after the 
manufacturer, the person who is cooking the stuff, the person 
who is cooking the stuff can be a little boutique that is 
cooking a little bit or it can be a major Mexican cartel that 
is making hundreds of millions of dollars transporting 
precursor chemicals and/or in this country producing the 
product as well. So it seems to me this is a little different.
    The point I want to get at is this. Mr. Warner, you are a 
prosecutor. We are up here talking about how tough we are going 
to get on all of these things. Yet, we went out just this year 
in the State Department-Commerce-Justice bill and we came in 
$200 million below the President's request for U.S. attorneys, 
we came in $300 million below the President's request for the 
FBI, and we came in $160 million below the President's request 
for the DEA.
    Now, all of you have to sit there and say we thank you for 
your help, Congress. Don't thank us this year. We didn't do the 
right thing this year. We didn't do what we were supposed to do 
this year. And it seems to me that if you want to have an 
impact, the single greatest impact, because you are talking 
about an incredibly large number of people, is people. We need 
more people.
    You can increase the penalties, which you should. You can 
deal with treating the precursor chemical coming across the 
border the same as the product that we outlaw coming across the 
border. But if you don't have more DEA agents, if you don't 
have more FBI agents, if you don't have more U.S. attorneys 
focusing on this, they ain't going to get very far.
    So, in my view, the single most significant thing we can 
do, in addition to trying to deal with access to the precursor 
chemicals here, is deal with the enforcement side, people.
    Yes, Sheriff.
    Mr. Doerge. Senator, if I may, I believe that 90 percent of 
the methamphetamine operations in Missouri are done at the mom-
and-pop operations, and we are dealing with those people over 
and over again. We put 100,000 officers on the street through 
these great programs, and we appreciate that. But we didn't 
have enough prosecutors and U.S. attorneys to take care of the 
cases before we put all those officers on the street, before we 
formed all these drug task forces. We do not have enough people 
in place to prosecute, and we keep seeing these people come 
back through and we keep seeing their faces time and time 
again. And it drains our resources, drains our time.
    I would like to be able to put those people away, and the 
suspended imposition of sentences be reduced down because of 
expediency and all the other things that they have to consider, 
and have those people put away to the point that they would at 
least have enough time in prison that we could deal with the 
new ones coming on. And you weren't here before, but this was 
taken off the Internet at our local library in our county and 
this is ingredients and instructions on how to do a 
methamphetamine lab. It is not being done in the basement so 
much; it is being done on the riverbank in our area and they 
are dumping the waste in our rivers.
    Senator Biden. Right. I know my time is up and I will 
conclude with this, Mr. Chairman, and I thank you for your 
indulgence. The truth of the matter is there are six major 
pieces of this dealing with the precursors at one end and 
dealing with cleanup at the other end, and there is in between 
the idea of prosecution, penalties, incarceration, and 
treatment.
    And the truth of the matter is, in this area this is high-
intensity as it relates to personnel required to deal with 
this. That is the only point I want to make to you. So if I 
could only have one thing, I know what I want, and I will take 
my political career on it having more impact than anything else 
we could do. If I give you more prosecutors, if I give you more 
DA's--if I am a responsible governor and give you more DA's to 
prosecute, if I give you more DEA agents, I can do more with 
that than I can do with any other single thing.
    We should do everything, and the thing that bothers me the 
most about all of this is why are we in a position where, in 
the matter of 4 years, 12 to 15 percent more kids think that 
this is not dangerous than before? And that goes to our overall 
drug program which I won't bore you all with.
    So I thank you all for your testimony. The point I am 
trying to make here is this can be a mom-and-pop operation. The 
more easy it is able to be done, the more requirement there is 
for personnel-intensive efforts--cops, prosecutors, and 
judges--to deal with it. That is the only point I wanted to 
make.
    The Chairman. Well, let me end the hearing with this. I 
agree with virtually everything Senator Biden has said, but I 
think there is something far more important than all of that, 
and that is we have got to get back in this country to thinking 
a little bit more about families and about what is right and 
wrong and about community support.
    Senator Biden, Senator Feinstein and I have worked very 
hard for the Boys and Girls Clubs of America. We are finding 
that where we have Boys and Girls Clubs, drug abuse goes down 
dramatically. And until we start revitalizing the spiritual 
nature--and I am not necessarily talking about religion, 
although certainly that is part of it--the spiritual nature of 
America that has always been here, but has been lost in recent 
years, or at least has been diminished in recent years, we are 
not going to have the intestinal fortitude or the spiritual 
fortitude to be able to fight this stuff.
    You can have all the prosecutors in the world and you can 
have all the policemen and sheriffs in the world, and this is 
just going to proliferate across this land in ways that nobody 
ever dreamed of unless we start emphasizing some of the family-
type things that really have to occur. You know, in a country 
where marriage is now starting to slip as a sanctified 
institution, it is not hard for me to see why kids are looking 
for release in other areas. And if they don't have the 
supervision and they don't have the family treatment and care--
a lot of these kids are being raised now in single-parent 
households where the poor parents don't know what to do. They 
have got to work and the kids are latchkey kids.
    We have got to be very concerned about the spiritual nature 
of America. And this is a great country. It is the most 
spiritual country ever in the history of the world, but we are 
losing it. We have got to get back to that first and then I 
think we do have to do all these other things that Senator 
Biden and others and myself have been calling for. We can 
prosecute these people for the rest of our lives and it isn't 
going to solve the problem unless we start changing the nature 
of our society and get it back to where it really was before 
the 1960's that have really ballooned into now the 1990's, 
going into the next century.
    So you have all been very helpful here today in helping us 
to understand this plague, really this catastrophic drug 
problem that is killing our young people. I want to personally 
thank each and every one of you for the efforts you are making 
to try and get this under control. And we will try and help you 
here. We will try to get a really good methamphetamine bill 
with the very best ideas of everybody on this committee. It is 
one thing where I just cannot believe we can't get together and 
work as Democrats and Republicans and come out with something 
that will really assist you and help you.
    But I also suggest this business of families and 
spirituality and decency and honor has got to start being 
emphasized. And, again, the Boys and Girls Clubs, the Boy and 
Girl Scouts, the----
    Senator Biden. Afterschool programs.
    The Chairman. Afterschool programs, and frankly during-
school programs, but mainly programs in the home. We have got 
to somehow or other start----
    Senator Biden. Mr. Chairman, I want the record to show I am 
returning these.
    The Chairman. I have no doubt that you will.
    Well, I want to thank all of you for being here. You have 
been very helpful to us and we just appreciate you very much, 
and I hope this hearing will educate a lot of people out there.
    I have read your statement, Ms. Kypridakes, and I think it 
is a very good statement. I have read all of your statements 
and I think all of them are good, but your State has so much of 
this and you have these super labs, the highest percentage of 
them, and I think people ought to pay attention to some of the 
things that you mention in your statement.
    Mr. Doerge, your experience has been wonderful here.
    Paul Warner, I know what great work you have done. And, of 
course, the DEA is terrific.
    And, Mr. Vasica, we all empathize with you and we are glad 
that your son has got this under control.
    Mr. Doerge. Mr. Chairman, if I may, please remember the 
local agencies. Most of these cases start with local law 
enforcement.
    The Chairman. Right, right.
    Mr. Doerge. And our local task forces need help.
    The Chairman. Yes, and you guys are doing a good job, but 
you are overwhelmed by it, and you have, I think, eloquently 
expressed that.
    Well, thank you all very much. With that, we will recess 
until further notice.
    Senator Biden. Thank you for the hearing, Mr. Chairman.
    The Chairman. We will keep the record alive until August 4 
for statements and additional questions. I hope you will answer 
them by then, if you can.
    Thank you.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]


                                <greek-d>

</pre></body></html>
